<html>
<title> - THE OCEANS ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Publishing Office]



 
                             THE OCEANS ACT

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 1213

                         THE OCEANS ACT OF 1997

                               H.R. 2547

TO DEVELOP NATIONAL POLICY WITH RESPECT TO OCEAN AND COASTAL ACTIVITIES

                               H.R. 3445

                        THE OCEAN COMMISSION ACT

                               __________

                     MARCH 19, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-75

                               __________

           Printed for the use of the Committee on Resources

                               -----------

                    U.S. GOVERNMENT PRINTING OFFICE
47-886 cc                   WASHINGTON : 1998




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho

                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                 Christopher Sterns, Democratic Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 19, 1998......................................     1

Statement of Members:
    Bilbray, Hon. Brian P., a Represenative in Congress from the 
      State of California........................................     7
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................     5
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     2
        Prepared statement of....................................     3
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
        Additional material submitted for the record by..........    37

Statement of Witnesses:
    Baker, D. James, Under Secretary for Oceans and Atmosphere, 
      Department of Commerce.....................................     9
        Prepared statement of....................................    39
    Brink, Kenneth, Chairman, Ocean Studies Board, National 
      Academy of Sciences........................................    24
        Prepared statement of....................................    40
    Gutting, Richard, Executive Vice President, National 
      Fisheries Institute, Alexandria, Virginia..................    26
        Prepared statement of....................................    42
    Kelly, Paul L., Senior Vice President, Rowan Companies, Inc..    31
        Prepared statement of....................................    43
    McManus, Roger, President, Center for Marine Conservation, 
      Washington, DC.............................................    28
        Prepared statement of....................................   128
    Merrell, William J., Senior Fellow and President, H. John 
      Heinz III Center for Science, Economics and the Environment    12
        Prepared statement of....................................   119

Additional material supplied:
    Memorandum from Committee on Resources to Members of the 
      Subcommittee...............................................   109
    The American Association of Port Authorities.................    47
    Text of S. 1213..............................................    49
    Text of H.R. 2547............................................    75
    Text of H.R. 3445............................................    93


   HEARING ON S. 1213, THE OCEANS ACT OF 1997; H.R. 2547, TO DEVELOP 
NATIONAL POLICY WITH RESPECT TO OCEAN AND COASTAL ACTIVITIES; AND H.R. 
                     3445, THE OCEAN COMMISSION ACT

                              ----------                              


                        THURSDAY, MARCH 19, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans will come to order.
    Today, the Subcommittee will hear testimony on three bills 
that build upon the foundation established more than 30 years 
ago with the enactment of the Marine Resources Engineering and 
Development Act. By the year 2010, it has been estimated that 
127 million, or 60 percent of all Americans, will live along 
our coasts. As someone who is proud to represent a coastal 
district, I have dedicated myself to the health and vitality of 
our oceans' ecosystems.
    The three bills we are considering today S. 1213, which was 
introduced by Senator Hollings and passed by the Senate, H.R. 
2547, introduced by Congressman Farr and H.R. 3445, which I 
have introduced, would all establish a new ocean policy 
commission and renew the directive to the President to 
establish a national ocean policy. S. 1213 would also establish 
a new ocean council comprised of representatives from those 
Federal agencies charged with responsibility over the oceans 
programs.
    [The text of the bills may be found at end of hearing.]
    Mr. Saxton. During the past three years, this Subcommittee 
has invested a great deal of effort in trying to improve U.S. 
nautical charting programs in dealing with the persistent 
management problems facing our fisheries industries. A formal 
review of all of these policies by a group of independent, 
nongovernmental experts would give us a fresh look at the 
problems and potential solutions on how to improve our oceans 
programs for the 21st century.
    I look forward to hearing from our distinguished witnesses 
and compliment the gentleman Mr. Farr for authoring H.R. 2547, 
the Oceans Act of 1997. He has contributed a great deal to the 
debate on this most important subject.
    Finally, I came across a characterization of the ocean that 
I would like to use today. The quote is this, ``The oceans are 
like a planet's last great living wilderness, man's only 
remaining frontier on earth and perhaps his last chance to 
prove himself a rational species.''
    I would now like to recognize the Ranking Member, Mr. 
Pallone.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning, Ladies and Gentlemen. Today, the Subcommittee 
will hear testimony on three bills that build upon the 
foundation established more than thirty years ago with the 
enactment of the Marine Resources, Engineering and Development 
Act.
    This historic legislation established the Commission on 
Marine Science, Engineering and Resources, commonly referred to 
as the Stratton Commission, which directed the President to 
establish a National Ocean Policy. As a direct result of the 
Stratton Commission's report, the National Oceanic and 
Atmospheric Administration was created and the Coastal Zone 
Management Program was approved by Congress.
    By the year 2010, it has been estimated that 127 million 
people or 60 percent of all Americans will live along our 
coasts. As someone who is proud to represent a coastal 
district, I have dedicated myself to the health and vitality of 
our ocean ecosystems.
    The three bills we are considering today--S. 1213, which 
was introduced by Senator Hollings and passed by the Senate; 
H.R. 2547, introduced by Congressman Parr, and H.R. 3445, which 
I have introduced--would all establish new ocean policy 
commissions and and renew the directive to the President to 
establish a National Ocean Policy. S. 1213 would also establish 
a new Ocean Council comprised of representatives from those 
Federal agencies charged with responsibility over ocean 
programs.
    The United Nations has declared 1998 to be the 
International Year of the Ocean. This year-long event is 
designed to increase public awareness of the importance of the 
world's oceans. It also provides a unique opportunity for this 
Nation to review our ocean and coastal programs to determine 
which programs are working, which are outdated, or which could 
be changed to improve their efficiency.
    As a maritime nation, we have always been aware of how 
critical oceans are to our well-being and the environment. For 
instance, the commercial fishing industry alone contributes 
$111 billion per year to our national economy. There is always 
a need to further invigorate our ocean and coastal programs.
    During the past three years, this Subcommittee has invested 
a great deal of effort trying to improve U.S. nautical charting 
programs and dealing with persistent management problems facing 
our fishery resources. A formal review of all of these policies 
by a group of independent non-governmental experts would give 
us a fresh look at the problems and potential solutions on how 
to improve our ocean programs for the 21st century.
    I look forward to hearing from our distinguished witnesses 
and I compliment Mr. Farr for authoring H.R. 2547, the Oceans 
Act of 1997. He has contributed a great deal to the debate on 
this important subject.
    Finally, I came across this characterization of the ocean 
that I would like to quote today: ``The oceans are like the 
planet's last great living wilderness, man's only remaining 
frontier on earth, and perhaps his last chance to prove himself 
a rational species.''

   STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, for holding this 
hearing today on the legislation to create a national ocean 
commission. I think this is obviously important. The U.N. has 
declared 1998 the ``International Year of the Ocean,'' but we 
don't really need a year of the ocean to recognize the 
importance of and the complexities of the economic value and 
also the quality of life derived from healthy and well-managed 
ocean and coastal resources.
    As we talked about at yesterday's hearing on NOAA's budget, 
more than anything else I think the ``International Year of the 
Ocean'' should be the opportunity to make sure that the 
necessary resources are made available to NOAA so that existing 
coastal and ocean programs can operate to the best of their 
abilities.
    In this ``International Year of the Ocean,'' I do think 
that it would also serve us well to take a step back and 
evaluate, look at what we have achieved in terms of ocean and 
coastal research and resource conservation and management and 
also look at where we want to be in the next millennium and how 
we are going to get there.
    I think that the legislation before us today sponsored by 
my colleagues Mr. Farr and also our chairman will help us do 
just that. These bills are modeled after the creation of the 
Stafford Commission under the Marine Resources and Engineering 
Development Act of 1966. In fact, it was as a result of the 
Stratton Commission's final report that NOAA, in fact, was 
created in 1970. Yet 30 years after the original Stratton 
Commission, we still do not have a national ocean policy.
    It is my hope that we can pass legislation this session 
that will help us move toward the development of a 
comprehensive ocean policy in the years ahead. Just as the 
original Stratton Commission helped us move in the right 
direction, I think that Stratton II as authorized by these 
bills will help us to reorganize and redirect our efforts with 
respect to coastal and ocean policies.
    I am very pleased that the Senate passed the Oceans Act of 
1997 introduced by Senator Hollings, and I think in the House 
we should follow the Senate's lead and pass similar legislation 
as soon as possible so that even in this abbreviated session we 
can get a bill to the President's desk and signed in honor of 
the ``International Year of the Ocean'' before the year is, in 
fact, over.
    Looking at the bills before us today, the only major 
difference that I can see is the establishment of a national 
ocean council in addition to the proposed commission. While the 
Hollings bill contains such a provision, the Farr and Saxton 
bills do not. I would hope that today's panel would comment on 
the merits of establishing such a council. I look forward to 
having their input.
    On a related matter, I also hope to hear from the 
administration today on the status of the White House National 
Conference on the Ocean. I know Mr. Farr has been the champion 
of this issue and requested that the White House hold the 
conference on the ocean in honor of the ``International Year of 
the Ocean,'' and I am anxious to know the status of this 
conference and how it may relate to the legislation before us 
today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    Mr. Chairman, thank you for holding this hearing today on 
legislation to create a National Ocean Commission.
    Mr. Chairman, this is a very important year for the oceans 
and ocean policy. The United Nations has declared 1998 the 
International Year of the Ocean.
    Now, I don't think that I or many of my colleagues on this 
Subcommittee need an International Year of the Ocean to 
recognize the importance of, the complexities of, the economic 
value of, or the quality of life derived from healthy and well 
managed ocean and coastal resources. And as we talked about at 
yesterday's hearing on NOAA's fiscal year 1999 budget, more 
than anything else, I think that in this--the International 
Year of the Ocean--we should be making sure that the necessary 
resources are made available to NOAA so that existing coastal 
and ocean programs can operate to the best of their abilities.
    But in this International Year of the Ocean, I do think 
that it would also serve us well to take a step back and 
evaluate--look at what we have achieved in terms of ocean and 
coastal research and resource conservation and management, and 
also to look at where we want to be in the next millennium, and 
how we are going to get there.
    I think that the legislation before us today will help us 
to do just that. It is modelled after the creation of the 
Stratton Commission under the Marine Resources and Engineering 
Development Act of 1966. In fact, it was as a result of the 
Stratton Commission's final report that the very agency I just 
mentioned, NOAA, was created in 1970.
    That gives you a sense of just how far we've come in terms 
of ocean policy since the original Stratton Commission. Back 
then NOAA didn't even exist--nor did the Coastal Zone 
Management Act, the National Sea Grant College Program, NURP, 
and other successful coastal and ocean programs.
    Yet 30 years after the original Stratton Commission, we 
still do not have a National Ocean Policy. It is my hope that 
we can pass legislation this session that will help move us 
towards the development of a comprehensive ocean policy in the 
years ahead. Just as the original Stratton Commission helped us 
move in the right direction, I think that Stratton II, as 
authorized by these bills, will help us to re-organize and 
redirect our efforts with respect to coastal and ocean 
policies.
    I believe that a national ocean policy is important in 
order to help us frame the debate on coastal and oceans issues. 
It will help us establish the current state of marine affairs, 
where we should be going, and what we need to do to get us 
there. A few examples of areas which would likely benefit from 
such a re-examination include: the role of oceans in human 
health, how to handle our current fishery management problems, 
and what to do about the increasing pressures being placed on 
the coastal zone as a result of increasing coastal populations.
    I am pleased that earlier this session, the Senate passed 
the Oceans Act of 1997, introduced by Senator Hollings. I think 
we in the House should follow the Senate's lead and pass 
similar legislation as soon as possible so that even in this 
abbreviated session, we can get a bill to the President's desk 
and signed in honor of the International Year of the Ocean--
before that year is actually over.
    Looking at the bills before us today, the only major 
difference that I can see is the establishment of a National 
Ocean Council, in addition to the proposed Commission. While 
the Hollings bill contains such a provision, the Farr and 
Saxton bills do not. I hope that today's panel will comment on 
the merits of establishing such a Council, and I look forward 
to having their input.
    Regardless of this issue, however, I want to make certain 
that we move forward on this legislation. As I just mentioned, 
with the limited number of legislative days remaining in the 
current session, we must act now to get an ocean bill to the 
President's desk, so that it can be signed by year's end.
    On a related matter, I hope to hear from the Administration 
today on the status of the White House or National Conference 
on the Ocean. I and many of my colleagues, and I know Mr. Farr 
has really been the champion of this issue, have requested that 
the White House hold a Conference on the Ocean in honor of the 
International Year of the Ocean. I am anxious to know the 
status of this conference, and how it may relate to the 
legislation before us today.
    In closing, let me just say that as we move towards the 
21st century, I think we should re-affirm our commitment to 
responsibly managing and protecting our ocean and coastal 
resources. I think it only appropriate that in this, the 
International Year of the Ocean, we focus on the big picture 
and develop a long-range, national ocean and coastal policy. I 
think that the bills that we are considering today will help us 
do that. But even more important, in this and every year, we 
should make certain that we provide the necessary resources to 
accomplish the goals that we set with resect to ocean and 
coastal policy.
    With that, I would like to welcome the panel today and I 
look forward to hearing from the Administration and others on 
this important matter.

    Mr. Saxton. Thank you, Mr. Pallone.
    I would like to call on the author of the original Oceans 
Commission Act that was introduced in the House, Mr. Farr, who 
has not only been a leader, but has been very instrumental in 
moving us more quickly than Congress usually moves on issues 
such as this. We thank him for his energetic, enthusiastic 
leadership.
    Mr. Farr?

 STATEMENT OF HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Farr. Thank you very much for that kind statement, but 
it also goes to a chairman who is very interested in this issue 
and can make things happen. I appreciate you making things 
happen.
    As stated, today is the day that we are having the hearing 
on the proposed legislation, both the Senate and the versions 
in the House. I think Mr. Pallone outlined the difference 
between the two, the major, and I would like to go into more 
specifics in a moment. Just a few comments about the 
opportunity we have before us.
    You know, rarely in politics if you look at the big picture 
in Washington do you have the ability to focus on a moment when 
Congress, the legislative branch of government; both Houses, 
the Senate and the House of Representatives; the 
administration, the executive branch of government; and 
essentially the international community, the United Nations, 
are all on the same page. I cannot think of anything other than 
the Middle East right now that has got everybody focused, and 
yet we are focused on the oceans.
    This is remarkable politics and it is remarkable timing 
because the ocean really is our planet. We are known as the 
``water planet'' because of our oceans, 71 percent of the 
earth's coverage. As Mr. Saxton so eloquently said, it really 
is the ``last frontier.''
    Really, what I hope comes out of all of this is not only 
the legislation to bring knowledge and then to understand where 
we need to go, it is sort of what comes out of this legislation 
is a commission's report to the executive branch and to 
Congress, and then there will be roles to take to implement the 
recommendations. Some of them will be administrative 
recommendations, some will be legislative, but there is a 
bigger role, and that is the education role, that is: to bring 
the consciousness of the crisis that we have before us to the 
people of America and likewise to the people of the world, so 
that we can have a serious tool to use in being able to protect 
this planet and protect our livelihoods.
    The reason I get so interested in the oceans is not only do 
I live in this great meeting of land and water on the central 
coast of California, but we have learned that the ocean is so 
much a part of the way we are in our livelihood. It is the 
economics is the ocean and it has been the livelihood for the 
fisheries industry. We have lost one. We have lost the sardine 
industry. If you read ``Cannery Row,'' by Steinbeck, then you 
will see what we lost.
    We have had an endangered species, the California sea 
otter, which everybody thought was extinct. It is now back and 
being back is big economics. Lots of people come to see it. A 
lot of things are being produced to honor the sea otter and to 
show it. It is not only the fisheries, but it is the wildlife 
and it is the threatened ecosystem, because as our earth gets 
more populated what we will understand is the demographics of 
world populations.
    Certainly, here in the United States and Members of 
Congress are concerned because population increases means 
census and census means reapportionment, and reapportionment 
means reelection or not reelection and it means political 
districts. If you look at what is happening in America, the 
populations are going to the coastal communities.
    The remarkable thing about this is that, you know, the last 
time Congress looked at this was back in 1966. I mean, 30 years 
have gone by since we have really taken a comprehensive look at 
it. If we do not, the situation is only going to get worse. 
Two-thirds of the world's cities with populations over 1.6 
million are located in the coastal zone. By the year 2010, it 
is estimated that 75 percent of the United States' population 
will live 50 miles from the coast.
    Mr. Chairman, this Committee on the oceans may be the most 
important committee in Congress, if most of the people are 
going to live right around it. With all of the potential 
environmental consequences and having so many people 
concentrated in areas of such diverse, and I think what we are 
recognizing, such fragile ecosystems is a constant meeting of 
land and water.
    The problem is that we are not investing enough in learning 
about our oceans. For all of the money that we have spent in 
space exploration, witness know woefully little about the 
amazing characteristics of 71 percent of the planet's surface--
and that is, our world's oceans. In fact, we know less about 
the surface of our own planet than we do about that of Mars, 
Venus and the moon. I believe we need to put our national ocean 
exploration programs on par with space programs in our efforts 
to conserve the marine environment at least equal to that 
provided to the land portion of our country.
    With this in mind, the bills before you, this is a 
bipartisan effort. We are not here to have pride of authorship 
because I think both Mr. Saxton and I have long enough 
political careers to realize that there is a bigger picture 
here, and that is: to develop a piece of legislation that 
really meets the need.
    What I would just suggest in closing, Mr. Chairman, is that 
the one thing that I think we need to strengthen in reading 
both my bill and yours and Senator Hollings' is that we need 
more language in here to recognize what role states are playing 
in creating ocean plans.
    My own state of California, for example, has done a very 
comprehensive study of what the ocean environment is and what 
the needs are out to the 200-mile limit. With that report, they 
are now in the process of sort of creating a state coastal 
ocean management plan to resolve conflicts of the ocean. It is 
a very comprehensive report and a very good one. We ought to 
recognize where states are like your state of New Jersey and 
our state are doing things it can be better coordinated.
    Secondly, I think we also need to ratchet up the interest 
in the role of education in all of this. We are not going to 
get anywhere even with the expo in Lisbon and this 
``International Year of the Oceans,'' this legislation and the 
oceans conference if we do not better disseminate what we are 
learning from it. I think we have a role to do that in the 
legislation, and I would like to address that as well.
    With that, I look forward to the hearing. I echo the 
concerns that Mr. Pallone said. I talked with Dr. Baker this 
morning, and I appreciate the discussion after yesterday's 
meeting. He has assured us, and maybe he will do it in his own 
words, that he is going to meet with Members of Congress to 
coordinate with them and have them participate in the year of 
the ocean. Thank you.
    Mr. Saxton. Thank you, Mr. Farr.
    Before we turn to our witnesses, I would like to emphasize 
that the Hollings bill, the Farr bill and the Saxton bill are 
all very similar. In fact, I have here a side-by-side from two 
sides of this paper. As I look at the various sections of the 
bill, in most cases there is no difference. We are, in essence, 
together on the concept, and the nuts and bolts that need to be 
changed we will certainly be able to work out in an amicable 
fashion.
    Dr. Baker and Dr. Merrell, we have been joined by our 
friend from Southern California, Mr. Bilbray, and I ask 
unanimous consent that Mr. Bilbray be invited and permitted to 
sit with us on the panel today.
    Thank you for being here. Did you have an opening statement 
that you would like to make?
    Mr. Bilbray. Yes, Mr. Chairman.
    Mr. Saxton. Proceed.

STATEMENT OF HON. BRIAN P. BILBRAY, A REPRESENATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Mr. Chairman, I apologize for my tardiness. My 
mind-set, I was thinking of the ocean and proceeded west 
immediately and ended up in the Rayburn Building.
    Mr. Saxton. Only someone from California could do that.
    [Laughter.]
    Mr. Bilbray. Well, at least when you grow up a block from 
the beach, you pretty well figure it is not far and you do find 
it if you go west.
    Mr. Chairman, I would just like to thank you for the 
opportunity to participate in the Subcommittee of this 
important hearing of one of the planet's most precious 
resources, the ocean, being second only in my opinion to the 
children of our communities.
    We are here today about three similar bills--S. 1213, H.R. 
2547 and H.R. 3445--all of which share a common goal of a long-
term conservation of our ocean resources. I am proud to be a 
co-sponsor of H.R. 3445, which you introduced along with Mr. 
Gilchrest, and I also wish to commend my fellow colleague from 
California, Sam Farr, and also the support of Senator Ernest 
Hollings of South Carolina for the hard work of actually 
addressing this issue of how we move toward a cleaner ocean in 
the ``Year of the Ocean.''
    As a lifelong resident of San Diego, I have grown up 
working and playing in the ocean. I have surfed, swam in the 
ocean since a boy. I have worked as a diver. I have cleaned 
naval ships in San Diego Harbor. I have dove for urchins in 
Abalonia and Pacific Ocean. I have even dove on yachts in the 
Gulf of Mexico. I have been a lifeguard, and now I spend much 
of my time involved with my family at the beach, in the ocean 
and participating in the area.
    This is also a unique perspective for me because too often 
we approach the ocean as being something esoteric and out 
there. It is not out there. We are here and the ocean is part 
of our human experience. It is an environmental and economic 
and, yes, even sometimes a spiritual relationship we have, and 
it is something that we must consider in our decisionmaking 
process to guide us in actions working with local communities 
and their elected officials as Members of Congress.
    I consider myself extremely fortunate to be able to benefit 
from the great relationship with the ocean and believe that now 
we have a responsibility to ensure that my children and your 
children and our grandchildren are able to experience the same 
relationship. I know this is a goal which we share and my 
colleagues here today on both sides of the aisle are working 
together to accomplish this goal. I am excited to be working 
with them on legislation to develop and implement a national 
ocean policy.
    One aspect of the task force before us which particularly 
interests me is the high potential for contribution from our 
private sector in enhancing our existing knowledge based upon 
the ocean. We have made progress in recent years in 
streamlining some of government's programs which were either 
redundant or operating completely independent of each other, 
and we have also begun to see potential applications of 
declassified military technology to ocean-related research and 
policy.
    However, in establishing a commission on ocean policy, 
ultimate formation of the national ocean policy, I want to make 
it a high priority to involve the experience, wisdom and 
perceptive and wide varying perceptions of ocean experts.
    During my time in Congress, I have relied on input from 
organizations ranging from the Scripps Institution of 
Oceanography to Surf Rider Foundation in making my decisions on 
ocean-related matters, and the range of perceptions has helped 
me guide my thinking and making sound science-based decisions. 
I know my colleagues here today rely on similar brain-trusts in 
making decisions which affect the resources of their own 
districts, and I want to make sure that the commission and the 
policy which we ultimately establish reflected the sort of 
opening approach.
    Mr. Chairman, I would just like to close by saying as 
somebody who not only got to enjoy the good things of the 
ocean, I grew up in a community that has been over the last 30 
years one of the most polluted and impacted communities in the 
United States, I have seen where good intentions of Washington 
did not culminate in good environment in the ocean.
    I hope that we move beyond the concept that what we did in 
the past is good enough and that we move beyond the concept 
that we cannot do better. I think we can and will by working 
with the community and working with science. I hope today we 
start the policy that caring for the ocean is not enough. We 
need to be well-informed, not just well-intentioned to protect 
the resource for our children and grandchildren.
    Again, Mr. Chairman, thank you very much for holding this 
hearing today.
    Mr. Saxton. I would ask unanimous consent that all 
Subcommittee members be permitted to include their opening 
statements in the record without objection.
    Our first panel consists of Dr. D. James Baker, under 
secretary for Oceans and Atmosphere at the Department of 
Commerce, and Dr. William J. Merrell, senior fellow and 
president, the H. John Heinz III Center for Science, Economics 
and Environment.
    Let me invite you to proceed. You have those little lights 
in front of you there. They are kind of a reminder that when 5 
minutes goes by we would appreciate you summarizing as soon as 
possible after that.
    Dr. Baker, please proceed.

  STATEMENT OF D. JAMES BAKER, UNDER SECRETARY FOR OCEANS AND 
               ATMOSPHERE, DEPARTMENT OF COMMERCE

    Dr. Baker. Thank you, Chairman Saxton, Congressman Farr and 
Congressman Bilbray.
    It is a great opportunity for us to be here to testify on 
the pending House bills H.R. 2547 and H.R. 3445 legislation to 
review, recommend and implement national ocean policies for the 
next century. I agree with the Subcommittee that 1998 is the 
``International Year of the Ocean.'' It represents an excellent 
opportunity for the Nation to initiate a major review of its 
ocean policies and to take actions to improve our understanding 
of ocean resources and systems.
    For the reasons stated below, the Administration believes 
that the creation of a limited-term nonpartisan commission to 
review U.S. domestic ocean policies and programs will yield 
substantial and worthwhile benefits for the Nation.
    The Administration has been reviewing the three bills that 
are the subject of today's hearing, H.R. 2547, which was 
introduced by Representative Farr with 34 co-sponsors including 
you, Mr. Chairman, and Representatives Abercrombie and 
Gilchrest; H.R. 3445, which you introduced last week, Mr. 
Chairman, co-sponsored by Representatives Gilchrest and 
Bilbray; and the bill passed by the Senate at the end of the 
first session of the Congress S. 1213. Just before Senate 
consideration of S. 1213, the Administration indicated its 
support for Senate passage of S. 1213, as modified by the 
Manager's Amendment. The Administration looks forward to 
working with you, the members of the Subcommittee and the full 
Resources Committee to craft an ``Oceans Act'' that builds on 
these three bills. We will provide detailed Administration 
comments on the House bills in a views letter in the very near 
future.
    Mr. Chairman, if we could provide for the record the letter 
that was sent by Secretary of Commerce Daley supporting S. 
1213, I would appreciate it.
    Mr. Saxton. It will be included in the record. Thank you.
    Mr. Baker. The three bills are different and the 
Administration would like to work with you to address the 
issues they raise. Today, I will focus on the two House bills. 
The guiding principal for the Administration is an Oceans Act 
that contributes to preservation of the Nation's ocean and 
coastal areas and does not infringe on the prerogatives of the 
President and the Executive Branch.
    As you noted, Mr. Chairman, today, half of the U.S. 
population lives within 50 miles of our shores and more than 30 
percent of the Gross Domestic Product is generated in the 
coastal zone. Coastal areas are also prime areas for 
recreation. But, many of our ocean and coastal resources once 
considered inexhaustible are now severely depleted. Wetlands 
and other marine habitats are threatened by pollution and other 
human activities. This year natural forces are again 
threatening communities and economies along all of our coasts. 
Even if this were not the ``International Year of the Ocean,'' 
there are ample reasons to focus national attention on the 
health of our ocean and coastal regions and resources.
    More than 30 years ago, in 1966, legislation was enacted 
calling for a comprehensive national program to explore the 
oceans, develop marine and coastal resources, and conserve the 
sea. The 1966 Act established a commission commonly known as 
the ``Stratton Commission.'' The importance of the Commission 
and its report cannot be underestimated, especially for those 
of us who owe our jobs to the creation of those agencies. The 
passage of the legislation and the creation of the commission 
itself helped call national attention to the ocean and the 
coast. The commission's report has helped shape U.S. domestic 
ocean policy for three decades.
    NOAA, the agency I am proud to administer, was born from 
the Stratton Commission study. Important national programs for 
defense, coastal and fisheries management, offshore 
development, oceanography, and marine transportation were 
either initiated or advanced in that study.
    Much has changed in 30 years. Scientific and technological 
advances now provide tools and insights that could only be 
imagined in the 1960's. Ocean-going commerce and the size of 
international fleets have increased dramatically; international 
maritime trade is expected to triple again over the next 
generation. Exploration of the deep ocean has discovered new 
mysteries such as thermal vents and many new species. Some 
discoveries have led to bio-medical advances. These modern 
changes, discoveries and advances have improved our 
understanding of the ocean, its resources, and the relationship 
between ocean, climate, and the coast. We still have much to 
learn and do. For example, satellite imaging and ocean 
observing systems in the Pacific have made monitoring 
phenomenon such as El Nino possible, making it possible to 
mitigate the impacts such events can have on diverse aspects of 
our economy and infrastructure. Other technologies have 
dramatically improved our capability to monitor how human 
activities alter and affect the health of sensitive coastal 
regions and habitats. New technologies will help offset the 
risk of increased marine commerce and larger ships by providing 
mariners with much more accurate and timely depth, water level 
and related information.
    The role of governments and how they administer programs 
have also changed dramatically. Legislation and administrative 
policies have created a new federalism emphasizing state and 
Federal partnerships. Universities and the private sector are 
playing increasingly important roles in achieving Federal roles 
and objectives. Establishing an Ocean Commission will help 
highlight and prioritize the direction of our future national 
efforts to reap the benefits of the ocean and its resources as 
we work to preserve ocean uses and resources for future 
generations.
    A new commission will also help the nation's ocean experts 
and interests to step back and review our ocean policies and 
examine our existing tool box of scientific, engineering and 
management tools. We will have the all-too-rare opportunity to 
look at the big picture to see what works, what does not, what 
needs changing, and what new opportunities, ideas, and visions 
have emerged. The Commission will help focus national attention 
on ocean activities, promote interagency cooperation, and 
strengthen partnerships with private and public entities 
engaged in ocean activities.
    The objectives outlined in the bills provide adequate 
guidance for the new commission. Those objectives are broad 
enough to encompass most every aspect of marine science, 
research and management without unduly restricting the 
discretion necessary for the commission to conduct a thoughtful 
and successful evaluation and analysis. For example, broad 
objectives to expand understanding the marine environment, 
promote stewardship, protect marine resources, prevent 
pollution, and reduce risks, provide clear yet general 
direction for the commission.
    The 104th Congress recognized the importance of 
coordination when it established the National Ocean Partnership 
Program (NOPP) to strengthen cooperation in ocean research and 
development through partnerships between Federal agencies, 
academia, and the private sector.
    I would just like to conclude with comments about the key 
opportunity preceding the establishment of the Oceans 
Commission, and that is the National Conference on the Year of 
the Ocean that is scheduled to take place sometime in June in 
Monterey Bay, California. The conference will be hosted by 
Secretary Daley and Secretary of the Navy Dalton. The 
Conference has four broad themes: ocean commerce, global 
security, environment and health, education and exploration.
    We look forward to working with Congress, as I have said to 
Congressman Farr, to develop the agenda and participation on 
this conference and the events before and after, which I think 
will be opportunity to expand participation.
    With experts from all ocean fields participating in the 
conference, it offers us a great opportunity to identify and 
highlight many of the oceans issues the commission may want to 
address. It is my hope that the Oceans Act will pass before the 
June conference, and we look forward to working with members of 
this Committee and other stakeholders as the conference is 
developed.
    Mr. Chairman, let me conclude by saying we have learned 
much in the three decades since the Stratton Commission 
completed its work. It is time to reexamine U.S. programs and 
policies with respect to the oceans and Great Lakes. The 
pending legislation provides a starting point to establish 
policies to guide future research, exploration, utilization, 
and conservation of ocean and coastal resources for the next 
generation.
    I support the need to enhance and maintain the Federal 
coordinated, comprehensive, and long-range national policy with 
respect to domestic ocean and coastal activities. The 
legislation pending before this Committee supports an 
important, initial step in that process through the creation of 
a Commission on Ocean Policy is a worthwhile step.
    Thank you very much.
    Mr. Saxton. Dr. Merrell?
    [The prepared statement of Mr. Baker may be found at end of 
hearing.]

 STATEMENT OF WILLIAM J. MERRELL, SENIOR FELLOW AND PRESIDENT, 
    H. JOHN HEINZ III CENTER FOR SCIENCE, ECONOMICS AND THE 
                          ENVIRONMENT

    Mr. Merrell. Good morning, Mr. Chairman, Mr. Farr, Mr. 
Bilbray.
    I am Bill Merrell, president of the Heinz Center. It is a 
pleasure to testify again during the Year of the Ocean, 
especially on the need for an ocean commission. Last October, I 
described to you our plans for our Year of the Ocean at the 
Heinz Center Steering Committee composed of leaders from 
academia, business, environmental organizations and government.
    The bottom line is we did what we said we were going to do. 
We held three workshops. The first in Irvine on the oceans 
multiple impacts on society, the second in Charleston on the 
challenge of sustainable coasts, the third here in Washington 
on improving our nation's marine fisheries.
    I thank you, Chairman Saxton, and you, Mr. Farr, for your 
valuable input into our fisheries workshop. As you know, at 
each workshop the four sectors worked together to identify 
critical problems and approaches to solving them. I came away 
from these workshops with the strong conviction that the basis 
of our problems, both in the oceans and on the coasts, is not 
bad or incompetent people, but instead failed or incomplete 
policies and institutions. I also came away from these 
workshops even more convinced of the absolutely critical need 
for an ocean commission.
    Thirty years ago, the Stratton Commission was specifically 
charged with using the oceans to expand our nation's economy. 
Their recommendations led to the legislative actions and 
institutional arrangements that did just that, expand our 
economy. Now 30 years later, we see that this economic 
expansion came at some cost.
    Let me use marine fisheries as an example. In 1976, the 
Magnuson Act nationalized our fisheries. Foreign fishing in the 
EEZ plummeted from 61 percent to 1 percent in a decade. The 
resource was ours to manage or to mismanage. Other legislation 
and tax policies encouraged the building of more fishing 
vessels with ever-increasing fishing capacity. NOAA was created 
on the recommendation of the Stratton Commission, and NOAA's 
National Marine Fisheries Service was charged with the dual 
responsibilities of promoting and managing the nation's marine 
fisheries.
    As you have often pointed out, Mr. Chairman, all of this 
led to the identification of a species as underutilized, then 
to its increasing use and, all too often, its overuse. We know 
now 30 years after Stratton that sustainability is a better 
paradigm than growth, that we must balance the use of a 
resource with conservation of that resource.
    We need fundamental changes in policy and institutional 
arrangements to embrace sustainability. To date that has not 
happened. We know where we want to go but not exactly how to 
get there. For example, the Magnuson Act has been amended at 
least 19 times. During the latest reorganization, it was 
renamed the Magnuson-Stevens Sustainable Fisheries Act and did 
include stronger fisheries management and conservation 
measures.
    The Act still does not adequately address excess fishing 
capacity. It assigns responsibility to protect essential fish 
habitat, but no real authority. The Act does not address the 
institutional setups started so many years ago. Despite its 
title, this Act will not sustain our marine fisheries. There 
are other examples.
    The Coastal Zone Management Act with its many modifications 
comes to mind. The general lesson is clear. Instead of 
continuing to make piecemeal changes to policies and 
institutions established long ago, our nation should pause and 
examine its fundamental relationship with the sea. It is time. 
It has been 30 years since Stratton.
    Balancing use and conservation should be our goal, and we 
should not shy away from fundamental change in our policies or 
our governance structure. It is time to take the issues and 
approaches developed during ``Year of the Ocean'' and form a 
set of comprehensive, yet specific recommendations about marine 
sciences, marine policy and marine governance in support of 
institutions. This is the essential role of the new commission.
    In closing, I hope I convinced you the stakes are high. We 
need to form an ocean commission. Without a commission to 
develop the national vision and goals, the momentum generated 
by ``Year of the Ocean'' will be lost. I applaud your efforts 
here today and implore you to finish this important task.
    Thank you.
    [The prepared statement of Mr. Merrell may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Dr. Merrell. As you have 
heard, we are going to have to take a break here. We have got 
two votes at least coming up in the next 10 minutes or so. We 
will get started with some questions anyway.
    Dr. Baker and Dr. Merrell, the implications that are drawn 
from the interest is demonstrated by Mr. Farr, Mr. Bilbray, Mr. 
Pallone and myself and others including Senator Hollings in 
pursuing this commission concept. Implicit in this process is 
the notion that we are not doing a sufficiently comprehensive 
job in terms of management of ocean resources in coastal areas.
    The National Oceanic and Atmospheric Administration was 
created 25 years ago. I also believe that implicit in our 
moving forward is to look at institutions such as NOAA and to 
not so much look at the personnel who currently or who have 
recently been in charge of these institutions, but to look at 
the institutional structures themselves to try and determine 
how they can be better structured to do a better job.
    NOAA, for example, was created 25 years ago, and that of 
course was a result of the Stratton Commission recommendation 
which Dr. Baker noted earlier. For example, here are some of 
the weak points that I noticed. NOAA in 1982 proposed, for 
example, that there be established 29 marine sanctuaries. In 
the meantime, since 1982 NOAA established 7 and Congress 
established for a total of only 12. Also, NOAA has made note 
that 86 stocks of fisheries are listed as overfished, but we 
are unable to determine the status of 448 other stocks. The 
NOAA fleet is a third point. The NOAA fleet of coastal ocean 
and fisheries research vessels has dwindled from 22 vessels to 
11 vessels. At present funding levels, it will take 30 years to 
modernize our navigational services. These are certainly not 
things for all of us to be proud of. Again, I do not point to 
the individuals who are currently in charge of doing activities 
in pursuit of these issues, but I look at the organizational 
structure.
    Given the lack of support for ocean provisions and the 
perennial budget reductions for NOAA's wet programs, what is it 
that you think we should look at in terms of the structure that 
currently exists? What might the commission look at in terms of 
the structure that currently exists in NOAA or elsewhere to 
make us more supportive of our goals and missions?
    Dr. Baker. Mr. Chairman, let me start and then I will ask 
Dr. Merrell to also comment because the fact that the two of us 
are sitting together here I think is, in part, part of the 
answer to this very great problem that you pose. It is a 
problem that I have been concerned about for a long time.
    I was a scientist working for NOAA in the late 1970's, and 
now I have become the administrator, so I can see it from two 
different sides. These questions that you raise about the need 
for conservation of coastal resources in the marine sanctuaries 
is an example of the difficulties we have had with fisheries. 
The problems of getting attention to the needs for NOAA's 
seagoing capabilities, the lack of support for navigational 
services are ones that we are very concerned about.
    When I came in, in 1993, for example, the administration 
was proposing zero funding for the National Undersea Research 
program and only about one-third of what had been provided to 
Congress for the Sea Grant program.
    We have made progress in all of these areas, but the 
progress has been slow. I think the good news is that we all 
agree on the importance of the problems, but where we have had 
difficulties is we have not been able to get the resources that 
are necessary to make the progress that is proper there. I will 
just give you one example.
    On the marine sanctuaries, I took this on as a special 
topic. We have tripled the budget for marine sanctuaries. But 
even so we only have about one-third of the budget that is 
really required according to the marine sanctuary managers to 
manage the sanctuaries which we currently have, not to mention 
additional ones.
    Now, what can we do to help address the problem? Well, 
yesterday you, Mr. Chairman, started the process. You asked the 
secretary of commerce to come in and he designated the deputy 
secretary. It is the first time ever that we have had a 
secretarial officer testify to this Subcommittee and point out 
the Department of Commerce was committed to addressing and 
helping with oceans issues. I think it was a very important 
step. I think the establishment of a commission to take a look 
at how we operate is also very important.
    Let me conclude, Mr. Chairman, by saying I think that the 
answer lies not just in the Federal Government. I think we have 
to have a new and stronger partnership with the states and with 
private industry. I think one of the things I am looking for 
from the commission is guidance--and we would be very happy to 
talk to the commission and work with them--guidance about how 
we can involve the private sector and the states in the 
governance of ocean resources in a much more formal and 
stronger way than we have done in the past.
    I was very happy that Dr. Merrell could join me on the 
panel because he represents the private sector. To have the two 
of us here, I think, shows that this is the direction that we 
would like to go.
    Mr. Saxton. Thank you, Dr. Baker.
    Dr. Merrell, we are going to have to go vote, and so we 
will have to hold your response until we get back. We apologize 
for that.
    In the meantime, the folks who are standing in the back of 
the room, there are some seats up here at this lower desk, if 
you would care to take them while we are gone.
    I think Mr. Farr has a quick statement he wants to make 
before we go.
    Mr. Farr. Well, the question I want to ask, and I want you 
to think about it while we are gone, is whether we really need 
to have a national ocean council. It is in the Hollings bill 
neither in the House bill, that is the major difference. Then, 
I would like your specific recommendations in light of what you 
have both said as to what do we need to strengthen the bill. 
This is the road map for what the commission is going to do; 
and if it is not asked, it will not have to do it. We ought to 
make sure that the bill is stating all of the things that we 
need to have stated.
    Thank you.
    [Recess.]
    Mr. Saxton. We were about to hear from Dr. Merrell relative 
to the basic question, What is it about our institutional 
structure that might provide for more progress with regard to 
better management of ocean resources?
    Dr. Merrell, you may go ahead and provide your thoughts.
    Mr. Merrell. Thank you, Mr. Chairman.
    I would say that your questions and your data really show 
the need for a fresh look. There are perfect questions as to 
why we need the commission to address what we are talking about 
today. We need new policies, we need new organizations, we need 
new ways of working with the states and the local governments. 
I think if we look at the problems we face--nonpoint source, 
coastal habitats, those sorts of things--it will not be solved 
by any one entity. It will be solved by the entities working 
together. I think that is important.
    I think that really argues that we need a fresh look at 
those types of problems. When we look at the Federal issues, 
maybe all of Stratton's work is not done. They did recommend 
that NOAA be an independent agency. That recommendation has 
never been followed, not that I have any problem with the 
present leadership in Commerce or with NOAA. The statistics 
that you have shown are that over the years our interest in the 
ocean and our support of the oceans has gone down clearly.
    I think, again, the real issue is that it is important that 
we get a new commission that is free to examine our fundamental 
relationship with the sea, how this nation views its 
relationship with the sea. We need to ask the question of how 
to balance the use of the resource with the conservation of the 
resource. We need to keep that in front of us and we need to 
look at the organizations needed to do that and the policies 
needed to do that.
    I think at that point you ask yourself, What are the 
organizations that would best serve our nation and its 
relationship with the sea? I would hope the commission would 
take a totally fresh look at that and really think about what 
is necessary. I think that would be the way to answer the types 
of questions that you have posed.
    Mr. Saxton. Thank you. Let me just pursue one other related 
issue. I frame this from the point of view of personal 
experience. The question that I have is I believe--and do 
you?--that public opinion today is that there may not be much 
to worry about with regard to the ocean, and therefore that 
attitude is reflected institutionally in the Congress and the 
Administration because we are a representative government and 
because there does not seem to be a lot of public pressure to 
move forward with things that we are discussing today.
    I ask that question and come to the conclusion that it is a 
major factor and something that we need to address because of 
an experience that I had in 1987 and 1988 when public opinion 
was very much boldly in favor of making changes in the 
management of ocean resources in the Northeast.
    From Long Island to New Jersey to Delaware to Maryland in 
the summers, in the two summers of those 2 years, we suffered 
algal blooms. We suffered from dolphins washing up on our 
beaches. We suffered from medical waste washing up on our 
beaches. In the coastal areas that I represented, that Mr. 
Pallone now represents, that Jim Howard then Congressman 
represented, that Norm Lent from Long Island then represented, 
that Ray McGrath at that time from Long Island represented, 
there was no issue that was more important to our constituents 
that better ocean management. Today, the converse seems to be 
true.
    You may have heard me say before that one of the most 
rewarding experiences of my political career just happened, a 
little happenstance where I was walking down the boulevard on 
Long Beach Island and a lady came off the beach and gave me a 
hug and said, ``Please go to Washington and thank your 
colleagues for what you did.''
    I said, ``What is that?''
    She said, ``I just walked out in the ocean and looked down 
and saw my feet, and that is the first time in my life that 
ever happened,'' she said.
    I suspect there is a notion among many people who live in 
coastal areas today that things are pretty good when, in fact, 
from a scientific point of view, and if one takes a closer 
look, things aren't so good. That may be one of the problems we 
are having. And, how do we address it?
    Dr. Baker. Congressman Saxton, I fully appreciate what you 
have said. I think your support in raising attention has been 
very important. I think the public opinion may be stronger 
toward conserving and protecting the oceans than one might 
think. There was a poll done last year by the Seaweb 
organization, a very broad poll, and right at the top was the 
fact that the public felt, the majority of the public felt, 
that we needed to protect the oceans, the oceans need help and 
that resources should go to that protection.
    It was a very important poll, and we should make sure that 
this Committee gets copies of that. We will do that. But that 
was, I think, heartening for us because I think it supported 
the points that you make that the public really is beginning to 
understand these problems.
    Mr. Saxton. Dr. Baker, it is not reflected. Maybe what you 
just said is the public is beginning to understand these 
problems or maybe the poll indicates that the public does 
understand these problems. I think a very compelling case can 
be made that the institutions that are responsible--I am 
pointing fingers at Congress, too, not just administration 
agencies--it seems to me that that public opinion is not very 
well reflected in the actions and the commitments that we 
government types have institutionally made to ocean management. 
There is a disconnect somewhere, either it is on the public 
side or there is a disconnect between us understanding what the 
public wants us to do or perhaps there is another explanation.
    Mr. Merrell, would you like to comment?
    Mr. Merrell. Yes, I would, Mr. Chairman. The PEW Charitable 
Trusts did fund that. I read the results very encouraging, that 
the public is getting more and more concerned. I remember more 
people supported ocean programs than the space program, which 
was shocking to me. I can tell you that in the 200 people we 
got together for our workshops we saw people who are, again, 
they are decisionmakers and they are stakeholders so they are a 
little closer to the problem than the general public, but we 
saw people who were very concerned and anxious to work together 
to solve these problems.
    I do see a broad series of people who are being exposed to 
this problem and are realizing that it is a very difficult 
problem. It is going to involve changes in the ways that we 
actually look at the ocean, how we use the ocean. I certainly 
agree that it is all of our duties to get this information out 
to the public.
    I think when the public understands what is happening they 
will come along, and they do want something to happen. I 
honestly think that. I think that we have a communication 
problem. I cannot think of a better time. If we cannot do this 
during the Year of the Ocean, we are not going to ever be able 
to do it, Mr. Saxton. We had better get after it and get this 
message out.
    Mr. Saxton. Thank you, Dr. Merrell.
    Mr. Farr?
    Mr. Farr. The question about the formation of a National 
Oceans Council, could you both reflect on that, whether we need 
to have an Oceans Council? You know, that is in the Hollings 
bill; it is not in either of the House bills. All bills create 
a commission. I understand that the Interagency Ocean Policy 
group and the National Ocean Partnership program already exist 
within the Federal Government to coordinate ocean policy. Why 
do we now need a separate council?
    Dr. Baker. Congressman Farr, let me start the discussion on 
that. The Administration is on record as supporting a council 
as provided for in S. 1213, the Hollings bill. We had a debate 
within the Administration on that proposal and decided as an 
Administration we would support that bill. There is a letter, 
as I said, read into the record from Secretary Daley that says 
that the Administration supports S. 1213, which has both a 
Commission and a National Oceans Council which brings together 
the Federal agencies that have oceans interests. We are on 
record as supporting that. We are looking forward to working 
with this Committee on the House side.
    Mr. Farr. Well, could you reflect on the rationale? Why do 
you think it is necessary?
    Dr. Baker. Why did we support that?
    Mr. Farr. Yes.
    Dr. Baker. For the following reason. If you look at current 
Federal ocean policy and how we handle it, in April 1995 there 
was a ``Presidential Decision Directive'' on United States 
policy on protecting the ocean environment. This is the 
official statement of the United States policy that encompasses 
the other statements that we make. That is April 1995, and a 
``Presidential Decision Directive'' is the way that we make 
policy. That policy is to be implemented by an Interagency 
Working Group on Global Affairs, and there is an ocean subgroup 
that is responsible specifically for that. We do have a group 
that looks at the policy on protecting the ocean environment.
    We also have established the National Ocean Partnership 
Program, a program that was proposed by Congress and agreed to 
by the Administration. The Program has a National Ocean 
Leadership Council. That partnership program focuses on 
research. It is specifically aimed at looking at research 
issues and is just in its infancy. We think it is a good 
program, and we support it. NOAA was the first agency outside 
the Navy to actually have a proposal in the budget to show that 
this was not just a Navy program, which had been funded 
strictly through the Navy at the beginning. We are eager to 
make that happen.
    I think the view that lead to our support of the Senate 
bill was that in spite of the things that are in place, more 
needs to be done. We can have better interagency coordination. 
We have pulled together an informal group called the Ocean 
Principals Group that has been discussing issues of how we can 
coordinate.
    This is, as I say, not a body that is legislated or has a 
formal charter, but it is an informal group to look at the 
broad issues. I think we feel that having a body that brings 
together the Federal agencies, all of those Federal agencies--
and there are more than 20 Federal agencies that have ocean 
responsibilities--is something that could be effective.
    We felt that the way the Senate bill is written it is 
something that we could support. It is an issue that we 
continue to debate. The National Space Council, I think, was 
effective in raising space issues to a high level. I think that 
an Oceans Council properly constituted is something that could 
do the same thing.
    Mr. Farr. Dr. Merrell?
    Mr. Merrell. I should qualify this is my personal opinion. 
While I strongly support the commission, I see no particular 
need for a council. One of my problems with it is that I think 
it presumes an outcome of the commission. I think if a council 
is set up, it should be in response to some sort of a 
recommendation by the commission. I would point out the 
administration can set up such a council anytime they wish 
anyhow as far as I can tell.
    Mr. Farr. You would leave it up to the commission to make 
that decision?
    Mr. Merrell. If it is any kind of a permanent council. I 
also would point out that under Dr. Baker's leadership, the 
Ocean Principals has been a revitalized group and I think would 
be suitable for getting information to the council, which I am 
concerned about. From the government to a commission, I think 
the information flow is something that we do have to think 
about.
    Mr. Farr. The other question was we are all here caring 
about the oceans and yesterday we had a little bit of a session 
on how could we get more money spent on the wet side, a little 
more money in the O than in the A. I am not sure we are against 
the A side of what NOAA is doing, but we would like to have 
equilibrium. I think there is a bigger issue here. Mr. Bilbray 
talked about it and Mr. Saxton talked about it.
    How can we use this process this year? If you are going to 
be in the limelight, then now is the time. We have got to put 
some money where our mouth is. What comes out of this if we do 
care about the oceans and we care about things we have been 
talking about, we are going to have to put some more money 
there. What is your recommendation on how we can elevate the 
public appreciation for ocean resources and the funding for 
their conservation?
    Mr. Merrell. Well, let me start out by saying I think it is 
critical that as we look at our nation's fundamental 
relationship with the ocean that we focus on all of the aspects 
of that. I would argue that if you just look at atmosphere and 
ocean you are not looking at enough. I think you have to look 
at the coastal issues. I think the biota is critical. If we are 
going to do ecosystem management, we need ecologists. We need 
to really think about how we organize.
    I come back to the issue we were talking about. I think we 
need to look at our fundamental relationships and this should 
not be viewed as a battle between atmosphere and ocean. What it 
ought to be is what we can all put together to really look at 
the problems facing our coastal area and our ocean and how we 
can get the experts working together on that issue.
    I think that is going to take fundamental change. I do not 
think we can piecemeal it anymore. I think we have piecemealed 
this since Stratton for 30 years. I think we are going to have 
to sit down and get past exactly what you are talking about 
where we are looking at the Weather Service doing this and that 
and instead start looking at all of the different types of 
sciences that are needed to address these very fundamental 
long-term, difficult questions.
    Mr. Farr. In a diminishing budget, I mean, we are in this 
balanced budget so we are not going to be able to have the 
luxury to have new add-ons. We have to rob Peter to pay Paul or 
get more efficient or have a strong economy and just have 
better income. I am really concerned because the space agencies 
seem to have done a pretty good job of convincing the public 
and Congress alike that we ought to build space stations, very 
controversial and very expensive things that I have supported.
    We are going to have to figure out where we are going to 
get the resources to do that. I agree with you, and I think all 
of these things can help. This is a struggle. Coming from the 
private sector I would really appreciate some thinking about 
how we might create a national lobby for this effort.
    Dr. Baker. Congressman Farr, I agree with you. It is a 
problem that we have been looking at. We have been able to 
increase some parts of the NOAA budget on the ocean side. The 
Fisheries Service is an area where we have actually had an 
increase over the last 4 years of almost 30 percent. I think 
that is because of a very strong interest from Congress in 
telling the Administration ``You have to be aware and you have 
to do something about these issues.'' Even within a difficult 
budget where we have lots of competing priorities, we have been 
able to increase part of it--but not all of it by a long shot.
    I look at it in the broader sense like this. The United 
States has an expanding population, needs for resources, and an 
exclusive economic zone that extends out 200 miles. We know 
very little about these, but this is where our resources for 
the future are.
    Mr. Farr. That is the frontier.
    Dr. Baker. That is it. We have to be out there 
understanding what the problems and what the resources are and 
enabling the use of these. Just one example where we are seeing 
a huge problem is with harmful algae blooms. All around the 
country we are seeing new toxic species appear in areas that we 
have not seen them before. We know that this is a problem that 
is growing each year. It is a problem which, in my view, is as 
great or greater than any climate change issue.
    As we change the chemistry of our coastal ocean and hence 
are changing the biology, we are going to affect the fisheries. 
It is a very, very difficult problem that extends all the way 
into the center of the country, and farms with runoff for 
fertilizer. We have got to address this. I think we can get 
public attention to issues this way.
    Mr. Farr. I know the time has expired. Do you think the 
national conference is going to get into that kind of thing, 
like, the effect of algae blooms and others?
    Dr. Baker. Absolutely. You know, we have four topics that 
we are currently looking at and we are looking forward to 
discussing with you your views about that, commerce, 
transportation, global security, environment and health and 
education and exploration. The environment and health section 
is, in fact, directly aimed at that issue. It is one that I 
think we can take up. If we can get attention in that way, I 
think we can build the resources that we need.
    Mr. Saxton. Before we go to Mr. Bilbray, let me, Dr. Baker 
and Dr. Merrell, just say that both Mr. Farr and I wrote our 
bills without providing for a council. My impression, or my 
objective at least, is to provide a fresh look at ocean policy, 
a fresh look, an unencumbered look, if you will.
    Now, in the Hollings bill the council is made up of, 
presumably, the designees of these people, but it says ``Shall 
consist of the secretary of commerce and the secretary of 
defense, the secretary of state, the secretary of 
transportation, the secretary of the interior, the attorney 
general, the administrator of the EPA,'' et cetera, et cetera. 
You get the idea.
    My fear is that this does not provide us with an 
opportunity for much of a fresh look, especially in light of 
the fact that the report in Mr. Hollings bill, the report 
paragraph (h) on page 24 says in part, ``The Commission shall 
submit to the President, via the Council,'' their report.
    I have all of the faith and confidence in the world that 
these heads of agencies are good people and their designees are 
well-intentioned people, but I cannot for the life of me 
convince myself that this will provide much of a fresh look. 
Our fresh look idea is to involve people who are not currently 
involved directly in the governmental process, some scientists, 
some experts in the field, some people who are not encumbered 
by the--how can I say it?--inertia of the current bureaucracy 
that we are all involved in.
    This Committee could attempt to take a fresh look, but we 
have a vested interest. The National Oceanic and Atmospheric 
Administration could attempt to take a fresh look, but you are 
encumbered by the current situation and all of the things that 
are involved. Our concept is to try to get this fresh look with 
some fresh folks who do not have encumbrances involved in their 
lives and in their professional endeavors currently. If you 
would like to, just respond once again each of you to this 
fresh look idea that Mr. Farr and I think is a good one.
    Dr. Baker. Congressman, I think this fresh look is 
absolutely critical, and I think that we hope that the 
Commission can provide that fresh look. As I look at the Senate 
bill, one of the points of having a Council was to assist the 
Commission in providing its report and to serve as a forum for 
a discussion inside the Federal Government.
    As I say, as the administration looked at the Senate bill, 
we felt that that was a useful function. We have not yet 
provided a views letter on the House bills, and we are 
currently developing that views letter and so your points are 
very useful to me. I will take this back to the discussion so 
we can incorporate that as we develop our views letter.
    Mr. Merrell. Again, I see no particular use for the 
council. I think the commission should be as free to work as 
possible. I think the concern that we should have is to be sure 
that the commission can get the information that it needs to 
make its recommendations.
    Mr. Saxton. Thank you.
    Mr. Bilbray?
    Mr. Bilbray. Thank you, Mr. Chairman.
    Dr. Baker, you were mentioning that a commission or a body 
may help to stimulate interest in the ocean environment, in the 
ocean experience, and that you equated the success of the space 
programs based on a commission. I have as much aerospace 
probably as much as any district, and I think we have got to be 
very frank about it. There is a built-in industry right there 
always encouraging Congress for monetary reasons, not just 
scientific, to put resources in our aerospace strategies. Let 
us be very blunt about it. The ocean has been the orphan 
because it does not have a rich uncle like the aerospace 
industry to be able to be here lobbying for our effort in the 
ocean.
    Would you not agree that one of the major problems we have 
had those of us who are interested in the ocean is that the 
ocean has been an economic thus political orphan in a lot of 
ways compared to the aerospace industry?
    Dr. Baker. Yes. Congressman Bilbray, I absolutely agree 
with you. The fact is the ocean reflects all of these needs and 
it has all of the wonderful issues that we need to address, but 
we simply have not had the resources that we need to do it.
    Mr. Bilbray. In fact, I would point out recently it just 
happens that while there may be some waning of political or 
public interest in aerospace exploration, we just happened to 
have found a meteorite that may indicate life on Mars. Some 
people debate now that it is crystal formation.
    There was so much media blitz about this may be leading to 
the identification of the source of life, but we did not see 
the same type of blitz go to what is a much more substantive 
find, and that is: the sea vent life forms and the enzymes in 
sea vents, which have hundreds of times more potential to be 
able to answer the question of the source of life.
    I am just saying as somebody who is just sort of caught in 
between aerospace and the ocean what the public is seeing and 
hearing from the media, and in some ways those of us in elected 
office, there does not seem to be consistence to what the 
science is telling those of us who are taking the time to 
listen to it.
    Dr. Baker. Well, you are absolutely right. I can just give 
one ray of hope here and that is this recent El Nino that we 
have been facing. You have seen it there in California. The El 
Nino is driven by the ocean. If we had not made ocean 
measurements, we could not have forecast the El Nino. It is 
this Subcommittee and the Appropriations group that gave money 
to NOAA to support the research that allowed us to do the 
forecasting. Believe me, the public is concerned about El Nino. 
This is, I think, a small start on exactly the problem that you 
are talking about.
    Mr. Bilbray. I appreciate you brought up El Nino. Being not 
just a surfer but also a representative of Scripps 
Institutional Oceanography--in fact, the comment that was made 
was that those of us who are surfers who approach the big waves 
and warm waters of El Nino like jackals circling a wildebeast, 
but not necessarily with the right attitude.
    I think El Nino should be an example, though. I sat on the 
Committee on Commerce where I watched people who thought they 
really cared, believed in the environment vote against the 
funding for El Nino research because they thought it was the 
long-term global forecasting that was being tied to global 
warming and other ozone observations, and they didn't 
understand the distinct difference between the two approaches. 
There were people getting caught back and forth in this issue.
    I think that we have got to point out that the atmospheric 
information we got applied with ocean information we got has 
enlightened us to a point to where we have got to consider it 
when we look at the biological. Now, you are talking about a 
certain type of blooms. Isn't it true that we really do not 
have enough baseline information to reasonably be able to 
inform the public of what really are impacts of a lot of human 
activities.
    I will give you a good example, kelp growth. So often we 
thought that the die off of kelp on the Pacific coast was 
somehow caused by coastal pollution as a major, major problem. 
Although now more and more over the last 20 years, we have 
researched it and we find that natural fluctuations in ocean 
temperatures is probably the major hit.
    The problem is the public does not hear about that because 
there is not some kind of dire, evil person or group to be able 
to attack. Your comment about that kind of information, the 
whole global--we talk about the air, the ocean and the 
biological, trying to tie those together rather than approach 
them separately, which is historically what we have been doing.
    Dr. Baker. That is absolutely true. I think that we are 
beginning to see some interest there, but we do not have enough 
baseline information. We can see that as we try to understand 
why we have some of these fluctuations, why fisheries move from 
place to place or longer-term climate fluctuations, and so this 
is an area where we need a lot more support.
    Mr. Bilbray. Well, Mr. Baker, I thank you. I will just 
close by saying the frustration I had working on the El Nino 
global warming may be tied together. A lot of my scientists 
were frustrated with elected officials at the highest level 
tieing natural phenomena to what may be a manmade activity and 
trying to make political hay out of it.
    The other frustration was watching representatives of the 
Midwest of the farming communities vote against funding to do 
long-term weather forecasting, which the beneficiaries 
overwhelmingly would be their constituents. Because it was out 
in the ocean and far away, in their minds, they thought that it 
did not affect their community, and it probably affects their 
community more than any other segment of our American society.
    Dr. Baker. That is true.
    Mr. Bilbray. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Saxton. Dr. Merrell, would you like to comment on Mr. 
Bilbray's last question?
    Mr. Merrell. Well, I will say the oceans are important to 
our economy. As you well know, tourism; fisheries, which you 
will hear about; oil and gas interests, which you will hear 
about in the next panel are very important to our economy. Your 
point that the aerospace industry is organized in a way that 
they have a lot of impact, we have a lot of businesses that 
generate a whole lot of jobs. They do a whole lot of good, and 
they are not heard from as much.
    I think something that we really need to think about is we 
have to make it clear that there is huge economic impact with 
the ocean. Mr. Farr's example of the otter being the symbol and 
the sanctuary there, people coming there as a destination, are 
just excellent areas where preservation and conservation and 
use will go hand in hand in some very powerful ways.
    I think if we can work together to achieve that we may be 
able to get groups coming in here, the kind that you are 
talking about, and really trying to explain to the members here 
just how important to the economy the oceans are.
    Mr. Bilbray. Doctor, you will admit, though--and I think 
the point the chairman said about if we form an advisory group 
or a research group let us not make them the traditional 
Washington-based government agencies that we traditionally do--
mostly because you are right, there are major economic 
opportunities out there and basic benefits from the oceans. The 
trouble is they tend to be small, unorganized groups that are 
cumulatively very small operations, very small economic units 
that are not organized in the megacorporations like you have 
with aerospace.
    Mr. Merrell. Right.
    Mr. Bilbray. Washington is much more sensitive and 
responsive, sadly, to the mega-operations. I think that is why 
I strongly support the intent of the chair, that the fact that 
we allow those who are always the last to be heard in 
Washington to be the first in line on this issue.
    Mr. Merrell. I agree.
    Mr. Saxton. Thank you very much, Mr. Bilbray.
    Dr. Baker and Dr. Merrell, thank you very much. We 
appreciate the extended time that you have been willing to 
spend with us this morning. The Members may have some 
additional questions for you, and we ask that you would kindly 
respond to those questions in writing. The hearing record will 
remain open for 30 days for those responses.
    Thank you for being with us.
    I would now like to introduce our second panel. We have Dr. 
Kenneth Brink, chairman of the Ocean Studies Board of the 
National Academy of Sciences; Mr. Richard Gutting, the 
executive vice president of the National Fisheries Institute; 
Roger McManus, president of the Center for Marine Conservation; 
and Paul L. Kelly, senior vice president of Rowan Companies, 
Inc.
    As the second panel is finding their way to their places, I 
would like to remind the witnesses about our 5-minute rule for 
testimony. Your written testimony will be included in the 
record. As you are in your places, we will begin with Dr. 
Kenneth Brink.
    Sir, you may begin.

  STATEMENT OF KENNETH BRINK, CHAIRMAN, OCEAN STUDIES BOARD, 
                  NATIONAL ACADEMY OF SCIENCES

    Mr. Brink. Thank you, Mr. Chairman, for the opportunity to 
appear before this Subcommittee to comment on this important 
and timely piece of legislation.
    My name is Kenneth Harold Brink, and I am a senior 
scientist at the Woods Hole Oceanographic Institution in 
Massachusetts. I also serve as chair of the Ocean Studies Board 
of the National Research Council. The board was established to 
advise the Federal Government and the Nation on issues of ocean 
science and policy.
    It has been about 30 years now since the Stratton 
Commission used its very broad mandate to study ocean affairs 
in the United States and to make recommendations. It certainly 
left a lasting mark on the way we consider the ocean in the 
United States, perhaps most notably through the foundation of 
NOAA as a joint ocean atmosphere agency. The wisdom of that 
joint ocean atmosphere agency became more clear as time went 
by. When it was first formed, it was something of an academic 
exercise.
    Since the Stratton Commission, the world has certainly 
changed. There have been some really great, I believe, 
achievements in ocean sciences in the United States. For 
example, during the cold war, capabilities in antisubmarine 
warfare were amazing. We were able to detect and track 
submarines in the open oceans in a way that was astounding. It 
took about 20 years to develop a predictive capability with El 
Nino, that capability is paying off now and certainly the 
public is very aware of the phenomenon in a way that 20 years 
ago seemed inconceivable.
    Hydrothermal vents are underwater geysers deep in the 
ocean, and they and the living communities around them have 
really changed the way we think about the universe. It has 
really been a piece of basic science information that has been 
an eye opener to our entire community.
    Finally, technology and communications have changed all 
aspects of our lives and it has certainly changed the way that 
we do ocean science. Just consider the growth and use of 
satellite remote sensing, for example.
    I believe it is time now for a new Stratton Commission. The 
cold war has ended. It has made it appropriate to rethink the 
reasons for why we do basic research. The United States does 
have, I believe, the best ocean science community in the world. 
It is extremely strong, and we need to think about the future 
directions for that community.
    I see three great challenges in the ocean sciences that we 
need to be thinking of in the next decade, one is sustainable 
ecosystems in the ocean. That includes issues of fisheries, how 
we can exploit fisheries and at the same time not ruin them, 
issues of diversity of life in the ocean and how we use that 
information about diversity to develop pharmaceuticals and 
other things that will help our society.
    The second grand challenge comes in what I call ``healthy 
coasts,'' and involves issues of harmful algae blooms, runoff 
from the land and how it affects ecosystems in the coastal 
ocean and how the ocean affects the land through coastal 
hazards--hurricanes, floods and so forth.
    Finally, a third grand area that I think we need to be 
thinking of in the next decade is climate prediction. When I 
say ``climate prediction,'' I mean on the time scales from 
years, typical of El Nino, out to time scales of tens of years 
where we are now discovering that there seem to be new modes of 
coupled ocean atmosphere climate changes over both the Pacific 
and the Atlantic.
    Finally, I believe that a commission with a broad mandate 
will be well positioned to cover the range of agencies involved 
in the ocean. I think it is important to point out the range of 
agencies because it has been very hard to get all of these 
agencies working together in the past.
    I would like to mention a few issues that I think are 
appropriate for the new commission. One is to raise the 
question of how we deal with these challenges, are we making 
the right investments in the right places at the right levels 
to ensure timely results and timely dissemination of these 
results to be actually useful to our society.
    For a given problem that is being considered within, say, 
an agency of the government, we need to consider whether there 
is an appropriate mix of strategic and short-term research. We 
know that it is all too easy to get bogged down in short-term 
problems and not look at the bigger picture.
    Ocean sciences require complex specialized facilities such 
as ships. These things take time and typically about a decade 
of planning. We have to ask if we are prepared to go forth into 
the coming decades with the new problems that we need to deal 
with.
    Finally, we will be dealing increasingly with major 
scientific issues that require efficient cooperation among 
agencies as well as sometimes internationally, especially when 
it comes to climate issues. We have to ask whether the 
coordination amongst these agencies could be improved and what 
we can do to encourage that improvement.
    The question came up earlier about a council. My own 
opinion on the council is that it makes sense to wait until we 
get the recommendations of the commission before we decide 
whether it is worth going forward with the council and in what 
form that council should take.
    I expect the new commission will uncover numerous aspects 
of the U.S. ocean enterprise that work very well, indeed, as 
they are now. I think also that the commission will find areas 
where improvements can certainly be made.
    In any case, I believe that a fresh look at the health and 
direction of the U.S. ocean enterprise could prove useful 
indeed. The National Research Council stands ready to assist in 
this effort as needed and appropriate.
    Thank you again, Mr. Chairman, for the opportunity to 
appear before this Subcommittee today.
    [The prepared statement of Mr. Brink may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much.
    Mr. Gutting?

    STATEMENT OF RICHARD GUTTING, EXECUTIVE VICE PRESIDENT, 
       NATIONAL FISHERIES INSTITUTE, ALEXANDRIA, VIRGINIA

    Mr. Gutting. Thank you, Mr. Chairman.
    My name is Richard Gutting, and I am executive vice 
president of the National Fisheries Institute. The institute 
represents 1,000 companies engaged in all aspects of the U.S. 
fish and seafood industry. Our companies operate vessels in all 
of the major U.S. fisheries and they also process, distribute 
and sell fish and seafood products in thousands of facilities 
around the United States.
    The institute supports the establishment of the commission 
for the simple reason that we believe that its recommendations 
could help our industry as well as the government in improving 
our fisheries and their contribution to the American people. We 
also feel that the recommendations of the commission could help 
better integrate fishery management into all of the other 
activities that impact our fisheries.
    You have my written statement. I am not going to read it. 
Instead I would like to react to some of the conversation, the 
very good conversation, you had with the last panel. 
Congressman Farr, you mentioned that you thought you might want 
to strengthen the bill in a couple of aspects. You mentioned 
states and you also mentioned education. I will give you 
another suggestion, food.
    The bill does not really focus in on food. One of the 
things that has happened in the last 30 years is that with the 
increasing global population the need to feed people has become 
a more urgent issue. The needs of hungry people are certainly 
going to be much more urgent in the next 10 or 20 years. The 
U.S. Government has committed itself along with all other 
nations to move toward food security.
    There was a Food Summit and a declaration that was called 
the ``Rome Declaration of World Food Security.'' Fisheries was 
part of this. In light of this it would be appropriate to give 
more emphasis to food in the bill. I think there is another 
reason to do this, and that is because by doing so we will make 
more real progress.
    I remember, Mr. Chairman, 1987 and 1988, when the trash was 
washing up on the New Jersey beaches and there was great public 
concern. Well, there is a great concern today over pfisteria. 
In the next few weeks, 15 presidents from seafood companies 
around the country are going to join with 15 presidents from 
the big companies that supply the recreational fishing industry 
and we are going to spend two days together along with 
scientists to try to puzzle through why these toxic blooms and 
pathogens are occurring.
    We have been told by the scientists that as much as $1 
billion worth of food could be unlocked if we could solve these 
problems. We hope that by focusing on food, and the food that 
is not available to us now, we might be able to come up with a 
solution. We would certainly welcome the commission's attention 
to that subject. By focusing on the food the oceans could 
provide we might find some answers and really improve the 
quality of life of all Americans.
    The other comment that struck me, Mr. Bilbray, was your 
mention of ocean experts. I certainly agreed with your comment. 
The need to bring in a ``fresh look,'' the Chairman said. One 
word of caution. I say this with all due affection to ocean 
scientists and from my experience of 30 years in ocean policy. 
There are groups that care very deeply about ocean policy. They 
tend to be visionaries, and they tend to be scientists.
    It is important that they be involved and make a 
contribution. But too often in the past these ocean experts 
come in with overoptimistic visions of things that are going to 
happen, which in the real world, in the world of business and 
the global marketplace, just have not occurred.
    I would ask that you be sure to include on the commission 
business people, people who are focused on jobs and practical 
results. Because if you do not include them, this is all going 
to be just so many words on paper and another file-and-forget 
report.
    Mr. Farr, I have heard you say that when it comes to oceans 
it comes down to the economy, and I agree with that. It comes 
down to the folks back home, and you need to be sure that the 
people with the practical experience and knowledge of taking 
big ideas and translating them into jobs, that those people are 
involved. I didn't quite see that emphasis in this commission. 
Those are my two ideas and suggestions: focus on food, and 
include business people.
    I thank you very much.
    [The prepared statement of Mr. Gutting may be found at end 
of hearing.
    Mr. Saxton. Thank you very much, Mr. Gutting, for the very 
thoughtful and articulate statement.
    Mr. McManus?

   STATEMENT OF ROGER McMANUS, PRESIDENT, CENTER FOR MARINE 
                  CONSERVATION, WASHINGTON, DC

    Mr. McManus. Thank you, Mr. Chairman, Mr. Farr and Mr. 
Bilbray.
    I am Roger McManus, and I am the president of the Center 
for Marine Conservation. I am very pleased to be here to talk 
about these bills. I understand my written testimony will be 
made part of the record.
    I want to go back initially to your comments, Mr. Chairman, 
regarding public interest. I think from our perspective the 
public is extremely interested in changing ocean policy. I 
would comment that for all of us here in Washington sometimes 
we are a little bit behind the rest of the country, and I 
believe the rest of the country will lead us on this issue, 
just as I think the rest of the country led us in some Magnuson 
Act reforms that you, sir, and others here helped champion and 
get through the Congress.
    In particular, though, today I want to emphasize what 
others have alluded to that this nation has an enormous 
potential in its marine environment. Over 4 million square 
miles of our territory, so to speak, is marine as compared to 
3.5 million square miles of land. We have the largest marine 
territory of any nation on earth and in that we have an 
enormous opportunity for ourselves and future generations.
    I think it is time now, time is ripe, for an answer to the 
challenge before us to take care of the resources in this area. 
The important point of these bills is that despite the threat 
to these resources and despite the opportunities available to 
us this nation has no plan for the exclusive economic zone. We 
have no plan for the largest portion of our country. This is 
the singular most important reason why these bills need to be 
passed and passed expeditiously.
    In the ``International Year of the Ocean,'' you and your 
colleagues are taking important steps to respond to the 
challenge of this need. I think the people of the United States 
will, indeed, support it and will be very thankful for this 
effort.
    We have a few suggestions about the House bills that I 
would like to put forward, some of them differing from my 
colleagues, but I think there is much agreement as well. We do 
see a clear mandate for the commission engaging the public, and 
I would argue that the hearings around the country should be 
required so that people can participate and there is a special 
effort made to encourage public participation.
    I think the Stratton Commission also was successful because 
of the leadership of its chair and the effectiveness of the 
executive director and staff of that commission, and we urge 
that everything be done possible to make sure that those kind 
of conditions exist in this new initiative.
    However, we also support the development of the council 
that is in the Senate bill, and for some reasons that are 
different than have been discussed here previously. I am not 
particularly anxious for the council to interfere with the work 
of the commission. I share your views, Mr. Chairman, and 
particularly watching the growing debate during ``Year of the 
Ocean'' in the executive branch, that what we do not need is 
the executive branch dictating or controlling the views of the 
commission. We need some fresh thinking.
    In the meantime, business has to go on. I do not think the 
challenges that we face in the oceans can suffer any longer 
from the lack of coordination that is required within the 
executive branch to move forward while we wait for the 
commission's advice.
    Therefore, we would support the establishment of the 
council. We think it needs to be done by Congress. We do not 
think the administration will do it by itself, and we do not 
think it will be effective if it does not come with your kind 
of leadership and direction, sir. While we urge rapid passage 
of the Oceans Act, we have articulated in our written testimony 
10 points for implementing sounder ocean policy in light of the 
``Year of the Ocean.'' While I don't propose to go through all 
of those now, I would like to hit a few high points. 
Particularly, I want to point out with respect to your recent 
work, sir, the problems regarding funding.
    [Chart.]
    Mr. McManus. As the chart on my left shows, we are seeing a 
decline in the amount by percentage being made available for 
research in ocean issues. The other chart I would call to your 
attention as pointing out why we need to change our ways 
through the commission and through other work is the fact that 
the greatest sources of coastal and marina pollution now are 
recognized now to be nonpoint sources of pollution.
    What we see is that most of the money goes to wastewater 
treatment. I am not arguing against wastewater treatment. We 
actually need to do more of it, but we recognize in the 
scientific community now that the real threat to coastal and 
ocean environments is nonpoint source pollution, and we need to 
deal with that.
    If I may just take a few moments and go on with just a few 
other points. One of our major points is that we need to 
strengthen the National Marine Sanctuary program and other 
efforts to set aside and protect marine protected areas. In the 
very broad sense of the exclusive economic zone, this nation 
does not have the kind of protection and zoning that has worked 
and has contributed to conservation on land. This needs to have 
a fresh thinking and it needs to be addressed more effectively.
    We also need to make sure that the great advancements in 
the Magnuson Act reauthorization are not subject to a retreat. 
We are seeing a lot of growing sentiment among folks that are 
concerned about the efforts that will be made to recover our 
fisheries, that we should roll back the protections that have 
been afforded by that new Act. While it is not perfect, we 
would argue strenuously that as part of the year of the ocean 
we move forward.
    We also need to strengthen the Clean Water Act, protect in 
a greater way the coastal and marine environment and make the 
same kind of advances in the marine environment as we have done 
for fresh water. As part of that, I would argue that we need to 
give Americans peace of mind when they go to the beach. Your 
state, sir, has done a lot of work in this area, for which I 
think a lot of credit can be taken.
    Nevertheless, for most Americans when they go to the beach 
they have no idea what their families or their children will be 
getting into. We need Federal standards to establish quality of 
water that is acceptable for coastal areas and also to have 
public officials monitor those areas and tell the public when 
it is safe and when it is not. I don't think it is very 
responsible at all in this country to allow people to be 
subject to harmful pollution when we can do something about it.
    I would also say that similar steps need to be taken to 
better ensure the quality of our seafood. Two other things that 
I will raise in closing, sir. Last year, was the 
``International Year of the Reef.'' While there is much done to 
promote education of the reefs and also much done to improve 
research, we did very little to actually protect reefs from 
further degradation. I would argue that as part of the ``Year 
of the Ocean'' that we initiate legislation to establish a 
national program to protect America's coral reefs, which are 
some of the finest coral reefs in the entire world.
    Finally, sir, dealing with the issues that have been raised 
about the economic values of the ocean, I would suggest that a 
carefully managed and healthy ocean is going to provide a lot 
more economic benefit than anything else we can do that may 
come out of our deliberations on the ocean. One of the areas 
that offers tremendous value for humankind has been addressed 
in this hearing, and that is in the pharmaceutical area.
    Right now if I was representing a company from another 
country, I could come into the exclusive economic zone of the 
United States, and I could harvest the resources of the United 
States of America, the pharmaceutically valuable organisms. I 
could destroy their ecosystem and I could even destroy what was 
left of them, if I could figure out how to do it. I could take 
it all home. I could process those chemicals and make billions 
of dollars, and I would not even have to tip my hat to the 
United States of America.
    I think that is wrong. I think we need new legislation that 
will seek to manage and conserve these resources, which may be 
the largest economic value we will get from the oceans. Today, 
the success of drugs on the market may be measured in terms of 
billions of dollars, and that certainly is a rich area for us 
to protect.
    Thank you, Mr. Chairman.
    [The prepared statement of McManus may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Mr. McManus.
    Mr. Kelly?

   STATEMENT OF PAUL L. KELLY, SENIOR VICE PRESIDENT, ROWAN 
                        COMPANIES, INC.

    Mr. Kelly. Thank you very much, Mr. Chairman.
    I am Paul Kelly with Rowan Companies, which is an 
international drilling contractor based in Houston. I serve on 
the Department of Interior's OCS Policy Committee as a 
representative of the petroleum industry and I have served as 
past chairman of that committee.
    Today, I am here to represent six major oil and gas trade 
associations in America that represent most of the companies 
involved in this business: the National Ocean Industries 
Association, the American Petroleum Institute, the Domestic 
Petroleum Council, the International Association of Drilling 
Contractors, the Independent Petroleum Association of America, 
and the Mid-Continent Oil and Gas Association.
    The organizations that I am representing today are mindful 
that 1998 is the ``International Year of the Ocean.'' I also 
serve on the Heinz Center Year of the Ocean Steering Group just 
like most of the other gentlemen at this table, which as you 
know is a partnership of industry, government, the 
environmental community and academia charged with planning U.S. 
activities for the Year of the Ocean.
    I do not want to be ``the skunk at the garden party,'' but 
I think we as an industry probably have more concerns over the 
establishment of the commission than have been expressed by 
most of the other witnesses today. The petroleum industry has 
not been totally well-served by some of the institutions that 
came out of the Stratton Commission Report.
    During the past decades, statutes such as the Coastal Zone 
Management Act and the National Environmental Policy Act have 
sometimes been used not always in good faith to block 
activities of our industry in the offshore. While it is always 
difficult to get six different trade associations to agree on 
any policy, we do agree that if the work of the commission were 
to lead to an excessively protective approach that does not 
take into consideration adequately multiple use of ocean 
resources in a balance of environmental and economic interests 
that it will be a nonstarter.
    At the same time, I hasten to congratulate my colleagues 
here on the Heinz Center Steering Group. If our work on ocean 
policy in the future could be like the work we have done in the 
steering group, it could have much merit. I think the spirit of 
the YOTO Steering Group has been one of interest in each 
other's ocean activities emphasizing how we can do things 
working together in an economically and environmentally 
balanced way, not emphasizing on how we should not do things or 
where we should not do things. I think that there has been a 
real spirit of consensus building and partnering in the 
steering group from which we can take an object lesson for in 
the future.
    We have several ideas on this legislation that we urge you 
to consider. We certainly hope that the nation's interest in a 
sound energy policy will be reflected in the work on ocean 
policy that goes forward. First, we are concerned that in the 
background materials of the Subcommittee's work and in some of 
the testimony from the administration on the various bills 
there has not been enough regard to the success we have had 
with offshore oil and gas development in America, both from the 
standpoint of benefits to the taxpayers and technology advances 
which are great.
    Chief among our recommendations is that you should not 
begin with the assumption that all ocean policies and statutes 
necessarily constitute a problem. For example, the policies 
that govern energy development in the Central and Western Gulf 
of Mexico have been a resounding success. They have fostered a 
robust industry that produces jobs for our citizens, energy for 
the Nation and revenue for the Treasury.
    Mr. Saxton. Mr. Kelly?
    Mr. Kelly. Yes, sir.
    Mr. Saxton. I am sorry to interrupt. I gather from your 
testimony that you have got several minutes at least of things 
you would like to say?
    Mr. Kelly. Yes, I do.
    Mr. Saxton. Well, Mr. Farr and I have to go vote, and so we 
will pick up your testimony in about 15 minutes when we return, 
if that is all right with you?
    Mr. Kelly. Very good.
    Mr. Saxton. Thank you.
    [Recess.]
    Mr. Saxton. Mr. Kelly, why don't you continue. We are very 
sorry about the interruption, but that is how Congress 
operates.
    Mr. Kelly. I understand, Mr. Chairman. I have been here 
before.
    I think when we broke I was talking about the success we 
have had in the Gulf of Mexico exploring for hydrocarbons on 
the shelf and in deep waters. I want the Subcommittee to know 
that these activities have been managed with specific regard 
for health, safety and the environment. Offshore oil and gas 
operations are highly regulated to meet stringent environmental 
standards.
    We are governed by an extremely complex, comprehensive and 
numerous set of statutes and regulations. These include the OCS 
Lands Act, NEPA, the Clean Water Act, the Clean Air Act, the 
Oil Pollution Act, the Marine Sanctuaries Act, the Marine 
Mammal Protection Act, the Coastal Zone Management Act, as well 
as RCRA.
    Moreover, new technology has eliminated or minimized the 
effect of offshore operations on plant and animal life. Indeed, 
production platforms serve as artificial reefs that are used by 
a diversity of marine organisms for spawning, feeding and 
shelter. This has been of benefit to both commercial and 
recreational fishing. There has also been a huge benefit from 
the offshore oil and gas program in terms of environmental 
research, and this should not be overlooked.
    The Department of Interior's Minerals Management Service 
has now spent in excess of half a billion dollars on 
environmental studies offshore, and they have accumulated a 
tremendous library of useful information that could be 
extremely useful to other ocean resource users. At the 
suggestion of the OCS Policy Committee a couple of years ago, 
they computerized this data to make it more available to the 
public.
    The economic and environmental success of the nation's 
ocean management policies in the Gulf raise the question of why 
other offshore areas are precluded from producing similar 
benefits to the nation. It seems to justify a reexamination of 
current offshore minerals management policies to eliminate such 
prohibitions.
    In these areas, it seems that scientific and technological 
advances have moved out ahead of public policy and knowledge of 
those advances. I believe this is something all the witnesses 
could agree on, that it is time to look at ocean policy in 
light of the technological developments we have had in the past 
30 years. That is why I liked the comments made earlier about 
taking a fresh look, because conditions have really changed.
    As I indicated before, there is some uncertainty in our 
industry whether there is an ocean policy problem that warrants 
the establishment of a commission. If, however, it is 
determined by members of the Subcommittee and the Congress that 
one is needed, we feel that it is premature to recommend the 
establishment of a council before the commission even meets and 
deliberates.
    We have had successes in U.S. ocean policy and we have had 
failures. If Congress determines that a commission is needed, 
it should be charged with examining these and determining what 
has worked and what has not worked. It should take its input 
directly from all stakeholders with an interest in the ocean, 
as well as the work of the YOTO Steering Group, which would 
provide good background data.
    I associate myself with the comments of Mr. Gutting made 
earlier that it is important to work this from the bottom up as 
well as from the top down in terms of Federal, state and local 
relations. It is very important that any work done involve the 
business community and the stakeholders who are actually doing 
things in the ocean.
    Moreover, we feel that a commission should only make policy 
recommendations to Congress. Neither the President nor the 
commission should adopt new ocean policies without full 
consideration, approval and oversight by Congress. The 
Commission's recommendations also should be subject to cost-
benefit analysis, risk assessment and peer reviewed science.
    The commission should ``sunset'' shortly after making its 
report to Congress, as is the case in S. 1213. It is our view 
that the addition of another federally supported permanent 
entity is not needed and may run contrary to the objective of a 
leaner, more efficient government.
    The commission should be charged with managing a broad 
range of interests with a stake in oceans policy, as I 
indicated, and Congress should mandate that the membership on 
the commission be balanced among stakeholders including 
geographic, scientific, regulatory, economic, and environmental 
interests.
    Moreover, the commission should be required to consider a 
range of the nation's many important concerns--agriculture, the 
environment, energy, fishing, marine transportation, and 
others. To that end, the commission's recommendation should 
balance environmental and economic issues and concerns.
    In conclusion, as significant stakeholders in ocean 
resource management decisions, we in the energy industry are 
hopeful that the Subcommittee will carefully consider these 
comments, and we are prepared to participate with you in the 
future.
    [The prepared statement of Mr. Kelly may be found at end of 
hearing.]
    Mr. Farr. [presiding] Thank you very much. Mr. Saxton had 
to step out for a moment, and I am going to proceed with the 
questions that I have. I want to, first of all, say how much I 
appreciate Mr. Gutting and Mr. Kelly talking about the need to 
involve the stakeholders.
    I think we all agree. I am a little concerned with some of 
your last statements on the standards that you would apply to 
the commission. I would suggest that those are probably 
standards that you would not want applied to every oil and gas 
exploration if you had to go through all of that checklist, 
because in many cases you would find that you could not hold up 
to sometimes the cost-benefit analysis.
    I mean, because when I found that in our area when lease/
sale 63, I think it was, off the central coast of California 
was proposed, that another industry, the tourism industry and 
the agricultural industry, lobbied very effectively against the 
drilling for interests in their own industry. They were saying 
that this was a high-risk/low-gain for local businesses, and 
perhaps a high-gain/low-risk for a national oil policy. If you 
are going to do a bottoms up and really listen to people at the 
local level, your industry may not come up on top. The need to 
have a balance is obviously there.
    I also take issue in your complaint about the OCS 
legislation affecting policy on oil and gas. I think the Exxon-
Valdez experience had more subsequent law making affecting 
tanker trafficking and the cost of doing business in the near 
shore than anything that could have come out of the OCS 
legislation.
    I think that there is also a concern here, and that is--and 
I would like to just step back for a moment. We have had a 
history of following development of resources, essentially, 
whether there has been risk capital put in to develop resources 
and to harvest resources. As a nation, we have just kind of let 
that happen, and the only areas that we did not let it happen, 
I think, is where we sat aside some national parks. I am 
thinking back a hundred years.
    What has happened, though, as people overharvested for us 
or overmined and had downstream damages there was an economic 
consequence which led to environmental management issues. I 
really think that a lot of the regulation that has hit industry 
has been because the excesses of that industry ended up 
damaging somebody else's economic interests. It was not just a 
bunch of greedy environmentalists saying ``This is not good.''
    There are economic interests out there for everybody. I am 
reminded of the fact that we just released two condors in the 
Big Sur region. You have the most expensive hotels in the 
country, the Post Ranch Inn and Ventana where it is $450 
minimum at the Post Ranch, I think, to spend the night. You 
have an increased interest in staying there because people now 
think they can now see a condor. That is an economic interest 
that is enhanced by resource management. What we do in politics 
is we try to make it all fit.
    The point I want to ask both of you gentlemen is we have a 
chance with the oceans now to bring it all together. You know, 
if you want to shut down a fishery, overfish it. If you want to 
shut down an oil and gas exploration, do it wrongly. I mean, 
create an impact that has a negative consequence.
    It seems to me that we have the ability through this oceans 
legislation, and I would hope that you would both get your 
industries to support it. If we were talking about doing space 
exploration, Lockheed would be in here and Boeing would be in 
here. Those industries that build the machinery to get us into 
space and all of those vested interests would come to the 
format and say, ``A council,'' as Dr. Baker said, ``or a 
commission would be right up our alley. Although we are not 
going to own it, we embrace the fact that you are going to 
spend money to do it.''
    That is what I think is lacking in the ocean area. We do 
not have that commitment by the private sector industry to walk 
into a big picture situation, because of fear that the big 
picture may end up somehow with some environmental restriction 
that will hurt our industry. I think that is really 
shortsighted and that is not traditionally how American 
business goes.
    As we venture out with this new legislation, because it is 
your vested interest in it, I would hope you would embrace the 
legislation, Mr. Kelly, and say, ``No, we are going to stand by 
this.'' I kind of heard you say, ``We are going to stand on the 
sidelines and watch.'' I think that is wrong.
    Mr. Gutting, I think you are absolutely right. Your best 
interest is to manage these fisheries so they will be there to 
be able to be harvested appropriately. I think if you are going 
to have all of the heads of industry together I hope that you 
will commit yourselves to this interest that we have got to 
lobby the ocean agenda. We have got to lobby it all together, 
because if we do not, what is going to come out of it is those 
who are interested in lobbying it will cut out what they think 
is just best for them, and that will not be the big picture. 
That is my comment and a question. I think the question is, 
Will you commit yourselves to that kind of effort and get the 
industries behind you?
    Mr. Gutting. If I might respond, Mr. Chairman.
    This Committee has just spent 4 years taking an 
extraordinarily intensive look at how fisheries are managed. As 
a result, we have a long list of reforms and changes and 
additions that we are now implementing. We in the industry are 
optimistic and excited about some of these changes, and we 
think that within the fisheries we are now on the path to 
building that sustainable future that you were talking about.
    Where this commission becomes very important for our 
industry is not in the internal aspects of fishery management, 
which have been addressed, but it is in the interface between 
what we are doing in fisheries and the other economic 
activities out there. These activities can have a tremendous 
impact on our ability to provide food to the American people.
    I mentioned pfisteria, but there is a whole panoply of 
phenomena out there--red tides, brown tides, pathogens. We have 
experienced pfisteria here. You were at the forefront in 
looking at that phenomena. These are the concerns now that are 
on the minds of my members, and these are outside the realm of 
fishery management.
    As I indicated, we welcome a national focus. We welcome a 
commission to address the interfaces between fisheries and 
other activities. I think it is extremely important for our 
future, and so you will find us supporting any kind of 
organized effort to bring the best science together with the 
stakeholders.
    I will make another statement, which is in my written 
testimony but I didn't mention it to you. Right now ocean 
policy is being formulated on the front pages of the newspapers 
and in the nightly news. We see and hear many sensational 
stories. They may or may not be based on fact.
    One of the things that is very attractive about what you 
are proposing in this legislation is that you are going to, I 
hope, bring the very best science and facts--not romance, not 
emotion, but true facts--to bear and the results will be in a 
definitive report.
    There has been a lot of emotion; we have heard a lot of 
rhetoric; we have seen a lot of romance about fisheries and 
oceans. They go so far, but it is time now for us to bring 
science and fact and business and the stakeholders together and 
try to make some sense out of this.
    Mr. Kelly. Mr. Farr, if I could give my answer to your 
question as well. You have said a lot and there is a lot to 
comment on, but let me say up front that you can be sure that 
if Congress proceeds with this legislation the offshore 
petroleum industry will be a participant. We will hope to be 
involved in the deliberations of a commission or any other 
organization that is established. We will definitely play a 
part, just as we are now in respect of the Heinz Center 
Steering Group.
    You mentioned cost-benefits analysis, risk, and Exxon-
Valdez. What we would hope to show--and the kind of cost-
benefits analyses you are talking about is a very large one--
that the cost, the perceived cost, has been reduced. The risk 
has been reduced by new technology that has evolved over the 
past 30 years as well as by better safety practices in our 
industry.
    Exxon-Valdez was a transportation accident and not an 
offshore accident. What really hurt us was Santa Barbara in 
1969. But if you look at the record, you will find that the 
U.S. industry has had an exemplary environmental record since 
that time which we think should reduce the risk perceived by 
other ocean users.
    I wanted to explain to you, too, in terms of being involved 
in this initiative there is not an industry in the United 
States that is more involved in ocean development today than 
the petroleum industry. For example, just yesterday the U.S. 
petroleum industry put over $1 billion on the table in bidding 
on an offshore lease sale in the Gulf of Mexico. We have had a 
series of lease sales now where similar amounts of money have 
been put up.
    You talk about ``big ideas,'' the industry is proceeding 
ahead with very big ideas in the deep water Gulf. We now have 
oil and gas production in over 3,000 feet of water in the Gulf. 
We expect to add 1 million barrels of crude oil per day to 
domestic production from the Gulf of Mexico by the year 2000. 
We have actually drilled a well in 7,700 feet of water two 
summers ago. There are research consortiums, including one 
called Deep Star that spent $9 million in the last 4 years 
trying to determine how we function in these water depths.
    Mr. Farr. I understand that. I do not want to debate this 
and time is limited. We have got to exit the room and I know 
that the Chairman has a question. I just think that sometimes 
there may be overriding concerns, say, that this is not the 
time now or the place to do oil drilling, regardless of the 
technology. That is what all of the debate is about. You and I 
we can debate that for years. I agree with you there are much 
better technologies and I applaud the industry for developing 
them.
    Mr. Saxton. Thank you, Mr. Farr.
    I am sorry. We have been asked to vacate the room at 1 p.m. 
and it is after that. I would just like to commend all of you 
for very good testimony. I would like to conclude the hearing 
by just reading a couple of paragraphs which I think are 
particularly important and really quite powerful from Mr. 
Gutting's written statement. Mr. Gutting writes:
    ``Thirty years ago, our fishing fleets lacked the capacity 
to harvest all the fishery resources off our coasts, and we 
faced overwhelming competition for these resources from very 
powerful foreign fleets fishing off our coasts. Today, those 
fisheries which once were unavailable to our fleets, are now 
producing billions of pounds of food for Americans. New 
technologies have been incorporated into our processing and 
distribution systems and many new products have been 
introduced.
    ``Most of the large underutilized stocks referred to in the 
Stratton Commission 30 years ago are now fully harvested, and 
the Commission fully considered the growing need for bringing 
recreational harvest under effective management. Nor did the 
Commission fully consider the growing need in bringing 
recreational harvests under effective management. The 
jurisdictional premise of the Stratton Commission's fishery 
management recommendations are no longer valid. Obviously, it 
is time for Congress to set up a mechanism through which 
America's ocean policies can reflect today's reality.''
    I would like to include letters that have been sent to the 
Committee.
    [The letters follows:]

The Honorable John McCain,
Chairman, Committee on Commerce, Science and Transportation,
United States Senate,
Washington, DC.
    Dear Mr. McCain:
    The purpose of this letter is to provide the Administration's views 
on the Oceans Act of 1997 (S. 1213) as reported by the Senate Committee 
on Commerce, Science and Transportation. As you prepare to bring the 
bill to the Senate floor, your consideration of the Administration's 
views would be appreciated.
    The Committee has developed a bill that supports and furthers the 
Administration's ocean policy goals. The Administration has in place 
robust interagency mechanisms for coordinating ocean policy issues. We 
believe that the bill as modified by the Manager's Amendment that was 
recently provided to us, would be consistent with, and assist in 
achieving, the Administration's domestic ocean policy objectives. 
Accordingly, the Administration supports Senate passage of S. 1213, as 
modified by the Manager's Amendment.
    We have been advised by the Office of Management and Budget that 
there is no objection to the submission of this letter to the Congress 
from the standpoint of the program of the President.
            Sincerely,
                                          William M. Daley,
                                 ______
                                 
    Mr. Saxton. Thank you very much for coming to today's 
hearing. We look forward to moving this bill together. We thank 
you very much for your very thoughtful contribution.
    Thank you.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
Statement of D. James Baker, Under Secretary for Oceans and Atmosphere 
  National Oceanic and Atmospheric Administration, U.S. Department of 
                                Commerce

    Good morning. I am James Baker, Under Secretary of Commerce 
for Oceans and Atmosphere and Administrator of the National 
Oceanic and Atmospheric Administration. I thank you, Mr. 
Chairman, and members of the Subcommittee, for this opportunity 
to testify on pending House bills, H.R. 2547 and H.R. 3445, 
legislation to review, recommend, and implement national ocean 
policies for the next century. I agree with the Subcommittee 
that 1998, as the International Year of the Oceans represents 
an excellent opportunity for the nation to initiate a major 
review of its ocean policies and to take actions to improve our 
understanding of ocean resources and systems. For the reasons 
stated below, the Administration believes that the creation of 
a limited term, nonpartisan commission to review U.S. domestic 
ocean policies and programs will yield substantial and 
worthwhile benefits for the Nation.
    The Administration has been reviewing the three bills that 
are the subject of today's hearing, H.R. 2547, which was 
introduced by Rep. Farr with thirty-four cosponsors, including 
you, Mr. Chairman, and Reps. Abercrombie and Gilchrest; H.R. 
3445, which you introduced last week, Mr. Chairman, cosponsored 
by Reps. Gilchrest and Bilbray; and the bill passed by the 
Senate at the end of the first session of the Congress, S. 
1213. Just before the Senate consideration of S. 1213, the 
Administration indicated its support for Senate passage of S. 
1213, as modified by the Manager's Amendment. The 
Administration looks forward to working with you, the members 
of the Subcommittee and the full Resources Committee to craft 
an ``Oceans Act'' that builds on these bills. We will provide 
detailed Administration comments on the House bills in a views 
letter in the very near future.
    The three bills are quite different and the Administration 
would like to work with you to address the issues that they 
raise. The guiding principle for the Administration is an 
Oceans Act that contributes to preservation of the Nation's 
oceans and coastal areas and does not infringe on the 
prerogatives of the President and the Executive Branch.
    Today, half of the U.S. population lives within 50 miles of 
our shores and more than 30 percent of the Gross Domestic 
Product is generated in the coastal zone. Coastal areas are 
also prime areas for recreation. But, many of our ocean and 
coastal resources once considered inexhaustible are severely 
depleted. Wetlands and other marine habitats are threatened by 
pollution and other human activities. This year natural forces 
are again threatening communities and economies along all of 
our coasts. Even if this were not the International Year of the 
Ocean, there are ample reasons to focus national attention on 
the health of our ocean and coastal regions and resources.
    More than thirty years ago in 1966, legislation was enacted 
calling for a comprehensive national program to explore the 
oceans, develop marine and coastal resources, and conserve the 
sea. The 1966 Act established a Commission on Marine Science, 
Engineering, and Resources, commonly known as the Stratton 
Commission for its chairman, Julius Stratton. The importance of 
the Commission and its report cannot be underestimated. The 
passage of the legislation and creation of the commission 
itself helped call national attention to the ocean and the 
coast. The Commission's report has helped shape U.S. domestic 
ocean policy for three decades. NOAA, the agency I am proud to 
administer, was born from the Stratton Commission study. 
Important national programs for defense, coastal and fisheries 
management, offshore development, oceanography, and marine 
transportation were initiated or advanced in the study.
    Much has changed in 30 years. Scientific and technological 
advances now provide tools and insights that could only be 
imagined in the 1960s. Ocean-going commerce and the size of 
international fleets have increased dramatically; international 
maritime trade is expected to triple again over the next 
generation. Exploration of the deep ocean has discovered new 
mysteries such as thermal vents and many new species. Some 
discoveries have led to bio-medical advances. These modern 
changes, discoveries, and advances have improved our 
understanding of the ocean, its resources, and the relationship 
between ocean, climate, and the coast. But we still have much 
to learn and do. For example, satellite imaging and ocean 
observing systems in the Pacific have made monitoring 
phenomenon such as El Nino possible, making it possible to 
mitigate the impacts such events can have on diverse aspects of 
our economy and infrastructure. Other technologies have 
dramatically improved our capability to monitor how human 
activities alter and affect the health of sensitive coastal 
regions and habitats. New technologies will help offset the 
risks of increased marine commerce and larger ships by 
providing mariners with much more accurate and timely depth, 
water level, and related information. The role of governments 
and how

they administer programs has also changed dramatically. 
Legislation and administrative policies have created a new 
federalism emphasizing state and Federal partnerships. 
Universities and the private sector are playing increasingly 
important roles in achieving Federal goals and objectives. 
Establishing an Ocean Commission will help highlight and 
prioritize the direction our future national efforts to reap 
the benefits of the ocean and its resources as we work to 
preserve ocean uses and resources for future generations.
    A new commission also will enable the nation's ocean 
experts and interests to step back and review our ocean 
policies and examine our existing tool box of scientific, 
engineering and management tools. We will have the all-too-rare 
opportunity to look at the big picture to see what works, what 
does not, what needs changing, and what new opportunities, 
ideas, and visions have emerged. The Commission will help focus 
national attention on ocean activities, promote interagency 
cooperation, and strengthen partnerships with private and 
public entities engaged in ocean activities. The mechanisms 
outlined in the bills to establish the commission will result 
in a diverse body that is supported by the Congress and the 
Administration. This should promote consensus on achieving and 
implementing the commission's recommendations. The objectives 
outlined in the Bills provide adequate guidance for the new 
commission. Those objectives are broad enough to encompass most 
every aspect of marine science, research, and management 
without unduly restricting the discretion necessary for the 
commission to conduct a successful and thoughtful evaluation 
and analysis. For example, broad objectives to expand 
understanding of the marine environment, promote stewardship, 
protect marine resources, prevent pollution, and reduce risks 
from natural and manmade hazards provide clear yet general 
direction for the commission. Emphasizing the continued 
development of new technologies and promoting interagency and 
intergovernmental cooperation are also valid and necessary 
objectives.
    The 104th Congress recognized the importance of 
coordination when it established the National Ocean Partnership 
Program (NOPP) to strengthen cooperation in ocean research and 
development through partnerships between Federal agencies, 
academia, and the private sector. NOPP has successfully 
increased interagency cooperation in the area of ocean research 
and provides a good example of how coordinating an integrated 
Federal effort can maximize use of limited resources and 
implement change in a timely and efficient manner.
    We have learned much in the three decades since the 
Stratton Commission completed its work. It is time to re-
examine U.S. programs and policies with respect to the oceans 
and Great Lakes. The pending legislation provides a starting 
point to establish policies to guide future research, 
exploration, utilization, and conservation of ocean and coastal 
resources for the next generation. I support the need to 
enhance and maintain the Federal coordinated, comprehensive, 
and long-range national policy with respect to domestic ocean 
and coastal activities. The legislation pending before this 
Committee supports an important, initial step in that process 
through the creation of a Commission on Ocean Policy is a 
worthwhile step.
    Mr. Chairman I would be happy to answer any questions 
members of the Subcommittee may have.
                                ------                                


    Statement of Dr. Kenneth H. Brink, Senior Scientist, Woods Hole 
    Oceanographic Institution and Chair of the Ocean Studies Board, 
                       National Research Council

    Good morning Mr. Chairman and Members of the Committee. 
Thank you for the opportunity to speak to you today as you 
consider the proposed Oceans Act of 1998. My name is Dr. 
Kenneth H. Brink and I am a senior scientist at the Woods Hole 
Oceanographic Institution. I also serve as the chair of the 
Ocean Studies Board (OSB) of the National Research Council, and 
I am here today primarily in that capacity. The National 
Research Council is the operating arm of the National Academy 
of Sciences, the National Academy of Engineering, and the 
Institute of Medicine, chartered by Congress in 1863 to advise 
the government on matters of science and technology.
    The Ocean Studies Board was established to advise the 
Federal Government and the nation on issues of ocean science 
and policy. The Board's members are leaders in ocean science 
and policy, employed both in academia and in the private 
sector. Most of our activities are initiated at the request of 
Federal agencies. For example, we have carried out a number of 
studies for the National Oceanic and Atmospheric Administration 
(NOAA) on topics such as coastal and fisheries management (see 
accompanying list).
    It has been about 30 years since the Stratton Commission 
was formed. It was a broad-based group that included 
scientists, policy makers and the ocean user community. The 
Commission was given a relatively broad mandate to examine 
ocean activities across a range of agencies in the United 
States. Based on its study, it produced a number of 
recommendations many, but not all, of which were implemented. 
Those that were carried out include the creation of the Sea 
Grant program (NRC 1994c) and, most notably, the creation of 
NOAA as an agency responsible for both oceanic and atmospheric 
affairs. Thus, the Stratton Commission cast a very long shadow 
and its recommendations had a profound influence on the 
structure of ocean sciences that exists in the United States 
today.
    The United States is the pre-eminent power in ocean 
sciences research in the world. This position has been 
maintained in part by a multi-faceted, flexible institutional 
structure as well as by a Federal commitment to fund research 
in the basic sciences. Technology has also contributed heavily 
to the U.S. leadership position and has grown in ways that 
would probably have been inconceivable 30 years ago. For 
example, computing power has made possible extremely 
sophisticated ocean measurement systems and powerful numerical 
models of ocean phenomena. Satellite technology and Internet 
communications have made it possible to gain sweeping views of 
the ocean's surface and disseminate this information rapidly to 
scientists.
    Improved technology and growing scientific sophistication 
have led to a number of remarkable accomplishments over the 
last decades. One stunning achievement in support of national 
security was our capability to detect and track foreign 
submarines in the open ocean, an accomplishment requiring an 
understanding of acoustics, signal processing, computing, 
sensors and ocean physics. Another impressive accomplishment 
involved the prediction of El Nino, an ocean-atmosphere 
phenomenon originating in the equatorial Pacific Ocean. 
Nowadays, we hear about El Nino daily, but it took a twenty 
year sustained effort of observations and modeling to make the 
present impressive prediction capability possible. Routine 
prediction may, in time, lead to substantial savings to the 
U.S. economy by making adaptive agriculture and other 
mitigation practices possible (NRC 1997).
    Finally, the last 20 years has seen the astounding 
discovery of deep-sea hot-water vents. These hitherto 
undiscovered sites contain unique life forms that have given us 
a deeper, broader understanding of the structure of life 
itself. A fundamental discovery such as this sparks our 
curiosity, opens new doors for potential applications, and 
helps us to comprehend our place in the universe.
    The overall success of the United States ocean science 
enterprise to date suggests that the Stratton Commission did 
its work well. For example, the prescience of placing oceanic 
and atmospheric matters in one agency paid off handsomely when 
it came to NOAA's important role in predicting El Nino events. 
But, the world, including the ocean science world, has changed 
dramatically over the last thirty years (NRC 1992). The Cold 
War has ended, causing the nation to rethink the need for 
national security related research, including in the ocean. In 
addition, new fields of scientific inquiry have developed with 
new national investments. As a result, although the overall 
ocean sciences budget has increased somewhat, it has declined 
by a factor of two when expressed as a fraction of the total 
basic research funding in the United States. We are now faced 
with a range of new ocean challenges and opportunities that we 
were barely aware of 30 years ago. For example, we must address 
the issue of sustaining ocean ecosystems, including the role of 
fisheries management, and the importance of preserving marine 
biodiversity (NRC 1998, 1995, 1994a). We need to maintain or 
improve conditions in coastal areas in the face of pressures 
from development and an ongoing flow of substances from the 
land to the ocean (NRC 1994b). And we need to improve our 
capabilities for climate prediction on time scales longer than 
the few years typical of El Nino.
    In this context of opportunities and challenges, proposals 
for a new, broad-based, ocean commission are quite timely. 
Ocean sciences in this nation have traditionally been scattered 
across a number of agencies, having different mandates, and 
having oversight by different congressional committees. This 
diversity is desirable in many ways, but it makes it difficult 
to gain an overall view of United States ocean activities. In 
light of the pressing societal questions connected with the 
ocean, and the changing context of science, it may be helpful 
to review our ocean activities in a more comprehensive way.
    There are a number of issues that a new Commission could 
deal with, and I list a few examples here.

        <bullet> In light of the important ocean problems that need to 
        be addressed, are we making the right investments, in the right 
        places, and at the right levels, to assure useful results and 
        their dissemination?
        <bullet> For a specific problem, is there an appropriate 
        balance between long-term strategic research and more immediate 
        ``tactical'' research, where answers are needed quickly? Within 
        any single agency, it may be difficult to strike the right 
        balance, given the press of immediate concerns.
        <bullet> Ocean sciences involve complex, specialized 
        facilities, such as ships, that require substantial lead-time 
        and investment. Yet, facility needs change as technologies 
        change. Are we well positioned to provide the right mix of 
        facilities as they are needed?
        <bullet> We deal increasingly with major scientific issues that 
        require efficient cooperation among many agencies, 
        institutions, and nations in order to meet our goals. Can 
        coordination among ocean agencies be improved? The ongoing 
        Global Change research program may provide useful lessons in 
        this regard. We can expect a growing internationalization of 
        many aspects of science, so coordination needs to be thought of 
        both nationally and, as appropriate, globally.
    I expect that any examination of the U.S. ocean enterprise will 
uncover both areas in need of improvement as well as praiseworthy 
aspects that can serve as models for change. A fresh look at the health 
and direction of the United States ocean enterprise could prove very 
useful and the National Research Council stands ready to assist as 
needed.
    Thank you again for the opportunity to speak with you today.

                               References

National Research Council (NRC). 1998. Improving Fish Stock 
Assessments. National Academy Press.
National Research Council (NRC). 1997. The Global Ocean 
Observing System: Users, Benefits, and Priorities. National 
Academy Press.
    National Research Council (NRC). 1995. Understanding Marine 
Biodiversity. National Academy Press.
National Research Council (NRC). 1994a. Improving the 
Management of U.S. Marine Fisheries. National Academy Press.
National Research Council (NRC). 1994b. Priorities for Coastal 
Ecosystem Science. National Academy Press.
National Research Council (NRC). 1994c. A Review of the NOAA 
National Sea Grant College Program. National Academy Press.
National Research Council (NRC). 1992. Oceanography in the Next 
Decade: Building New Partnerships. National Academy Press.
                                ------                                


    Statement of Richard E. Gutting, Jr., Executive Vice President, 
                      National Fisheries Institute

    Mr. Chairman and members of the Subcommittee, I am Richard 
E. Gutting, Jr., Executive Vice President of the National 
Fisheries Institute. Thank you Mr. Chairman for giving the 
Institute this opportunity to testify.
    The Institute represents more than 1,000 companies engaged 
in all aspects of the United States seafood industry. NFI 
members operate vessels in all of the major fisheries of the 
United States, and they process, distribute, and sell fish and 
seafood in thousands of facilities located throughout the 
United States. We are the largest organization representing the 
U.S. fish and seafood industry.
    Our Institute supports the establishment of a Commission on 
Ocean Policy. The recommendations from such a Commission could 
help guide both government and our industry in further 
improving the way ocean fisheries are conducted and in better 
integrating the many different governmental and private 
activities which effect ocean fisheries.
    Thirty years have gone by since a similar Commission was 
established. Since that time, the U.S. fish and seafood 
industry has modernized and expanded. The challenges and 
opportunities we face now are quite different than those we 
faced in the 1960's.
    Thirty years ago, our fishing fleets lacked the capacity to 
harvest all the fishery resources off our coasts, and we faced 
overwhelming competition for these resources from powerful 
foreign fleets fishing off our coasts. Today, those fisheries 
which once were unavailable to our fleets, are now producing 
billions of pounds of food for Americans. New technologies have 
been incorporated into our processing and distribution systems 
and many new products have been introduced.
    As a result, Americans are enjoying a wider variety of 
seafood products of superior quality and seafood's contribution 
to better health and nutrition has soared. On average, 
Americans today eat about 15 pounds of seafood each year. This 
compares to about 10.3 pounds in 1960, and 12.5 pounds in 1980. 
Scientific reports and government studies cite fish and seafood 
as low in fat, easily digestible, and a good source of protein, 
important minerals, and vitamins. As Americans become 
increasingly aware of these health and nutritional advantages, 
their demand for more and better seafood products should grow.
    Most of the large underutilized stocks referred to by the 
Stratton Commission 30 years ago are now fully harvested. The 
fish protein concentrate the Stratton Commission touted has 
proved not to be feasible. Nor did the Commission fully 
consider the growing need to bring recreational harvests under 
effective management. The jurisdictional premises of the 
Stratton Commission's fishery management recommendations are no 
longer valid. And the Commission's recommendation that a way be 
found to reduce excess fishing effort seems more urgent than 
ever.
    The challenges we faced 30 years ago in supplying Americans 
with seafood, in short, are dramatically different than those 
we face today. It is time, the National Fisheries Institute 
believes, to take a second look at how the United States can 
best use the oceans as a source of food to meet the growing 
needs of its expanding population.
    Opportunities abound if we can bring the challenges into 
focus at the national level. Much more seafood could be 
produced if we could find a way to avoid early fishery closures 
because of bycatch. Scientists also tell us that significant 
gains in seafood production are possible if waste is 
eliminated, if the fisheries damaged by pollution or lost 
habitat are restored, and if over-fished fisheries are rebuilt. 
Aquaculture also offers a way to boost food production and 
generate new jobs for coastal communities. Indeed, one academic 
study estimates that as much as $5.6 billion in additional 
economic activity and 181,000 jobs are already being generated 
by aquaculture producers.
    With many fisheries reaching biological limits, new ways 
must be found to produce fish and seafood. And the new 
strategies which are needed must be fashioned within the 
realities of the global marketplace in which we find ourselves. 
Today the world's population is 5.5 billion people. By the year 
2020, it will increase 45 percent to 7.9 billion.
    Our nation needs to focus on the oceans. An Ocean 
Commission, which brings diverse interests together, could help 
generate this focus.
    Such a Commission also could help bring scientific 
knowledge together with policy making. Today, ocean policy is 
being driven by the media, which is well meaning, but not 
technologically knowledgeable. It is time to bring together 
science and policy makers in an open forum to separate what is 
romance and emotion from what is scientific fact.
    In this regard, it is important that the Commission be 
given adequate resources to investigate and assess the issues 
before it. It is equally important that the work of the 
Commission not duplicate the efforts called for in the numerous 
fishery-related studies that Congress has asked for in the 
Sustainable Fisheries Act of 1996.
    Our nation needs ocean policies that will meet the needs of 
our growing population. The Institute is confident that through 
public education and cooperation between all levels of the 
government, our nation can develop long-range policies that 
will foster the sustainable use of the oceans and its fishery 
resources.
                                ------                                


  Statement of Paul L. Kelly, Rowan Companies, Inc. on behalf of the 
     National Ocean Industries Association, the American Petroleum 
 Institute, the Domestic Petroleum Council, the Independent Petroleum 
   Association of America, the International Association of Drilling 
   Contractors, and the National Mid-Continent Oil & Gas Association

    Good morning, Mr. Chairman and members of the Subcommittee. 
I am Paul Kelly, Senior Vice President of the Rowan Companies, 
which is engaged in worldwide onshore and offshore drilling 
operations. I am also past chairman of the Department of the 
Interior's Outer Continental Shelf (OCS) Policy Committee and 
am pleased to appear here today on behalf of several trade 
associations that represent American companies that are 
actively involved in oil and gas operations in U.S. waters.
    These associations include the National Ocean Industries 
Association (NOIA), which represents more than 280 companies 
and many individuals involved in the exploration and 
development of domestic offshore oil and natural gas resources; 
the American Petroleum Institute (API), which represents more 
than 400 companies involved in all aspects of the oil and 
natural gas industry, including exploration, production, 
transportation, refining and marketing; the Domestic Petroleum 
Council (DPC), which is a national trade association 
representing the largest independent natural gas and crude oil 
exploration and production companies in the United States; the 
Independent Petroleum Association of America (IPAA), which 
represents America's 8,000 crude oil and natural gas 
exploration companies that drill more than 85 percent of new 
U.S. wells, including those in the OCS; the International 
Association of Drilling Contractors (IADC), which represents 
nearly 900 contract-drilling and well-servicing firms, oil and 
gas producers, and suppliers of oilfield equipment; and the 
Mid-Continent Oil and Gas Association, a national trade group 
representing both major and independent oil and gas companies 
on domestic exploration and production issues.
    The organizations I am representing here today are mindful 
that 1998 is the international Year of the Ocean (YOTO). I am 
particularly involved because I serve on the Heinz Center's 
YOTO Steering Group, which is comprised of leaders from all 
major sectors concerned with the ocean--industry, government, 
the environmental community and academia--and has been charged 
with planning U.S. activities for the Year of the Ocean.
    Since Congress is evaluating the need for a new ocean 
policy commission, its composition and the potential scope of 
its work, I am pleased to have this opportunity to share with 
you the views of the six associations I am representing here 
today.
    We have several ideas on the subject that we urge you to 
consider. We are especially hopeful that the nation's interest 
in sound energy policy, environmental policy and ocean resource 
management policy will be considered during the Subcommittee's 
deliberations.
    Chief among our recommendations is that your deliberations 
should NOT begin with the assumption that current ocean 
policies or statutes necessarily constitute a problem. For 
example, the policies that govern energy development in the 
central and western Gulf of Mexico have been a resounding 
success. The policies have fostered a robust industry that 
produces jobs for our citizens, energy for the nation and 
revenue for the treasury. To illustrate these benefits, 
attached is a summary of funds generated from OCS development 
and distributed to the states and districts represented by the 
members of this Subcommittee.
    These activities in the Gulf have been managed with 
specific regard for health, safety and the environment. 
Offshore oil and gas operations are highly regulated to meet 
stringent environmental standards. Existing Federal statutes 
governing our industry in the offshore and OCS are numerous, 
complex and comprehensive. They include the OCS Lands Act, the 
National Environmental Policy Act, the Clean Water Act, the 
Clean Air Act, the Oil Pollution Act, the National Marine 
Sanctuaries Act, the Marine Mammal Protection Act, the Coastal 
Zone Management Act, the Resource Conservation and Recovery 
Act, and others. Moreover, new technology has eliminated or 
minimized the effect of offshore operations on plant and animal 
life and production platforms serve as artificial reefs that 
are used by a diversity of marine organisms for spawning, 
feeding and shelter. This has been a benefit to both commercial 
and recreational fishing.
    The economic and environmental success of the nation's 
ocean management policies in the Gulf raise the question of why 
other offshore areas are precluded from producing similar 
benefits to the nation and seems to justify a reexamination of 
current offshore minerals management policies to eliminate such 
prohibitions. In these areas, it seems that scientific and 
technological advances have moved out ahead of public policy 
and knowledge of those advances.
    As we've indicated, it is not clear that that there is an 
ocean policy problem that warrants the establishment of a 
Commission. If, however, it is determined that one is needed, 
it is premature to recommend the establishment of a Council 
before the Commission has even met and deliberated.
    We have had successes in U.S. ocean policy and we have had 
failures. If Congress determines that a Commission is needed, 
it should be charged with examining these and determining what 
has worked and what has not worked. It should take its input 
directly from all the stakeholders with an interest in the 
ocean, as well as the work of the YOTO Steering Group.
    Moreover, a Commission should only make policy 
recommendations to Congress. Neither the President nor the 
Commission should adopt new ocean policies without the full 
consideration, approval and oversight by the Congress. The 
Commission's recommendations should be subject to cost/benefit 
analysis, risk assessment and peer reviewed science.
    The Commission should ``sunset'' shortly after making its 
report to Congress, as is the case in S. 1213, as passed by the 
Senate, and H.R. 3445. It is our view that the addition of 
another federally supported permanent entity is not needed and 
may run contrary to the objective of a leaner, more efficient 
government.
    The Commission should be charged with representing a broad 
range of interests with a stake in oceans policy and Congress 
should mandate that membership on the Commission be balanced 
among stakeholders, including geographic, scientific, 
regulatory, economic, and environmental interests. Moreover, 
the Commission should be required to consider a range of the 
nation's many important concerns--agriculture, the environment, 
energy, fishing, marine transportation and others. To that end, 
the Commission's recommendations should balance environmental 
and economic issues and concerns.
    In conclusion, as significant stakeholders in ocean 
resource management decisions, we are hopeful that the 
Subcommittee will carefully consider my comments here today. I 
thank you for providing me this opportunity to present the 
views of the industries, companies and individuals involved in 
offshore oil and natural gas operations.
[GRAPHIC] [TIFF OMITTED] T7886.092

       Statement of the American Association of Port Authorities

    Mr. Chairman, the American Association of Port Authorities 
(AAPA) submits this statement for the record for the 
Subcommittee hearing on Ocean Policy Bills. AAPA represents the 
major public port agencies throughout the Western Hemisphere. 
This statement represents the views of AAPA's United States 
delegation. The U.S. public port industry, made up of State and 
local government agencies, develops, manages and promotes the 
infrastructure needed to support the flow of waterborne 
commerce. Ports act as catalysts for local and regional 
economic growth. Commercial port activities in 1994 provided 
employment for 1.6 million Americans, contributed $79 billion 
to the U.S. Gross Domestic Product (GDP), and personal income 
of $56 billion. Port activities also accounted for Federal 
taxes of $15.4 billion, and State and local tax revenues 
amounting to $5.9 billion.
    Investments in our nation's maritime transportation system 
pay tremendous dividends to the country through lower prices 
for goods, increased trade, more and better-paying jobs, and a 
safer, cleaner environment. Ports themselves are investing 
heavily in their facilities, to the tune of over $1.3 billion 
each year, to accommodate projected increases in international 
trade and meet our customers' needs.
    AAPA is pleased to support S. 1213 and H.R. 2547 and we 
urge the Subcommittee's approval of the legislation. We ask 
that the Subcommittee, in considering this legislation, keep in 
mind the interests of our nation's ports and the need to 
consider the use of the ocean and coastal resources for 
international trade and commerce as an integral part of the 
process to develop a comprehensive, long-range national ocean 
policy.
    These bills, which recognize the need for responsible and 
economically beneficial use and stewardship of ocean and 
coastal resources, would benefit from a more specific focus on 
maritime commerce. Our national ocean policy has been recently 
shaped by the recommendations of the 1966 Commission on Marine 
Science, Engineering and Resources, or ``Stratton'' Commission.
    The Coastal Zone Management Act of 1972, which was an 
outgrowth of the Stratton Commission, specifically gives 
priority consideration to coastal-dependent uses and orderly 
processes for siting national defense, energy, fisheries 
development recreational, ports etc. It also sets a goal of 
providing assistance in the redevelopment of deteriorating 
urban waterfronts and ports, among other things. U.S. ports 
hope that the creation of a new Commission to examine ocean and 
coastal activities would include at least one port 
representative and continue to include maritime commerce as a 
priority in any recommendations.
    Our nation uses the ocean for its fisheries, we mine the 
ocean for its vast natural resources, we enjoy the ocean for 
its recreational opportunities, and we use the oceans in trade 
lanes connecting world markets. In ports around the country 
there is a greater awareness than ever before about the 
importance of integrating our activities with interests in 
public access to the waterfront, recreational activities, and 
protection of our environment. Likewise, ports are being 
recognized as a valuable resource to their local and regional 
communities, contributing to the national and local areas' 
economic activity and national security, and also as an 
important partner in meeting environmental goals by providing 
cleaner alternatives in goods movement strategies. A thriving 
port translates into fewer goods traveling long distances to a 
market by truck, thereby improving air quality and reducing 
congestion and wear and tear on interstate and local roadways.
    From the perspective of a port, the oceans are our 
lifeline; they provide for us the means of connecting with 
markets and economies so distant from our own. In the arena of 
international trade, ports provide the interface between the 
ocean and the land, the seller and the consumer. Ports provide 
the platform for the transfer of goods from ship to truck or 
rail, as well as a home to cruise ship, ferry, commercial 
fishing, and recreational users. Increasingly, trends in the 
maritime industry are making new demands on our ports and 
related landside infrastructure.
    The worldwide economy is expanding. More and more nations 
are enjoying improving economic conditions and are entering the 
global marketplace. The result is the that the volume of goods 
being traded worldwide is growing at impressive rates and is 
expected to triple by 2020. While trade volumes are growing, 
competitive forces within the maritime trade are as great as 
ever. Shippers are seeking the cheapest and fastest way to get 
their products from production to the consumer. Shipping lines 
are responding to these customer demands by seeking the 
greatest efficiencies possible to cut costs and improve 
service. In some cases, at large ports the result has been that 
shipping lines are carrying far more cargo on fewer, though 
much larger, vessels. These larger vessels are expensive to 
operate, so it is in the shipping lines' interest to limit the 
amount of time a vessel is in port. The goal is to load or 
unload as much cargo as possible in a port and sail out of port 
as quickly as possible to maximize the value of the ship's 
operating costs. In other ports, this trend means more feeder 
vessels, barge activity, and lightering.
    This development in world trade is having tremendous 
impacts on all aspects of ports. Larger vessels typically 
require deeper shipping channels and berths to accommodate the 
deeper drafts of these vessels. This raises questions, of 
course, about the physical and environmental consequences of 
channel deepenings, including habitat impacts, dredge disposal 
management, and operational safety. The volume of cargo being 
loaded onto or unloaded off of these large ships is staggering 
and requires greater upland storage areas for the cargo and 
more equipment to move the cargo to and from ships. The demands 
on the landside infrastructure requires difficult trade offs 
for a local community in terms of adjacent land uses, and even 
greater demand on local highway and rail systems.
    These impacts are forcing ports to consider new investments 
in their water and landside facilities to meet the demands of 
the shipping lines and their customers, while being mindful of 
the need to make these investments in a way that is sensitive 
to the environment--producing a net environmental benefit. It 
means that ports are dredging channels and berths deeper and 
looking at areas to expand their marine terminals by taking 
properties adjacent to existing facilities or creating new land 
using fill. We are challenged to do so with broad consideration 
for public concerns for environmental sensitivity, focusing on 
how to use strategies to reuse brownfield sites and enhance 
habitats. To more efficiently handle cargo on and off the 
marine terminals, new investments are being made in highways 
and highway connections, as well as improvements in on-dock 
rail connections and overall rail service to and from the port.
    Identifying the resources to make these investments is a 
significant challenge to ports. More and more ports are looking 
for partners to share the costs of these investments. This 
includes seeking support from the Federal Government, as well 
as partnerships with the private sector, especially private 
terminal operators and vessel operators.
    On the state and local levels, transportation planning 
should account for the demands the port's activities will have 
on the local infrastructure. Urban planners need to recognize 
that waterfront property is a finite resource and that maritime 
activities, unlike other commercial enterprises, can occur only 
along the water. Waterfront zoning and development plans must 
take this fact into consideration, just as we must also 
consider public access and recreational requirements.
    Another problem facing ports is the increased use of the 
waterways. As mentioned above, many ports are seeing greater 
service by barge lines, feeder ships, and passenger and 
recreational vessels. This trend greatly increases the 
possibilities of accidents, which can cause injury to humans 
and the environment. We appreciate the leadership the 
Subcommittee has shown in addressing the important issue of 
navigation safety.
    These are the types of issues that must be at the forefront 
of any national ocean policy, and we urge the Subcommittee to 
consider these important issues in its consideration of the 
ocean policy bills before it.
    Thank you for your consideration of our views.



    [GRAPHIC] [TIFF OMITTED] 47886.001
    
    [GRAPHIC] [TIFF OMITTED] 47886.002
    
    [GRAPHIC] [TIFF OMITTED] 47886.003
    
    [GRAPHIC] [TIFF OMITTED] 47886.004
    
    [GRAPHIC] [TIFF OMITTED] 47886.005
    
    [GRAPHIC] [TIFF OMITTED] 47886.006
    
    [GRAPHIC] [TIFF OMITTED] 47886.007
    
    [GRAPHIC] [TIFF OMITTED] 47886.008
    
    [GRAPHIC] [TIFF OMITTED] 47886.009
    
    [GRAPHIC] [TIFF OMITTED] 47886.010
    
    [GRAPHIC] [TIFF OMITTED] 47886.011
    
    [GRAPHIC] [TIFF OMITTED] 47886.012
    
    [GRAPHIC] [TIFF OMITTED] 47886.013
    
    [GRAPHIC] [TIFF OMITTED] 47886.014
    
    [GRAPHIC] [TIFF OMITTED] 47886.015
    
    [GRAPHIC] [TIFF OMITTED] 47886.016
    
    [GRAPHIC] [TIFF OMITTED] 47886.017
    
    [GRAPHIC] [TIFF OMITTED] 47886.018
    
    [GRAPHIC] [TIFF OMITTED] 47886.019
    
    [GRAPHIC] [TIFF OMITTED] 47886.020
    
    [GRAPHIC] [TIFF OMITTED] 47886.021
    
    [GRAPHIC] [TIFF OMITTED] 47886.022
    
    [GRAPHIC] [TIFF OMITTED] 47886.023
    
    [GRAPHIC] [TIFF OMITTED] 47886.024
    
    [GRAPHIC] [TIFF OMITTED] 47886.025
    
    [GRAPHIC] [TIFF OMITTED] 47886.026
    
    [GRAPHIC] [TIFF OMITTED] 47886.027
    
    [GRAPHIC] [TIFF OMITTED] 47886.028
    
    [GRAPHIC] [TIFF OMITTED] 47886.029
    
    [GRAPHIC] [TIFF OMITTED] 47886.030
    
    [GRAPHIC] [TIFF OMITTED] 47886.031
    
    [GRAPHIC] [TIFF OMITTED] 47886.032
    
    [GRAPHIC] [TIFF OMITTED] 47886.033
    
    [GRAPHIC] [TIFF OMITTED] 47886.034
    
    [GRAPHIC] [TIFF OMITTED] 47886.035
    
    [GRAPHIC] [TIFF OMITTED] 47886.036
    
    [GRAPHIC] [TIFF OMITTED] 47886.037
    
    [GRAPHIC] [TIFF OMITTED] 47886.038
    
    [GRAPHIC] [TIFF OMITTED] 47886.039
    
    [GRAPHIC] [TIFF OMITTED] 47886.040
    
    [GRAPHIC] [TIFF OMITTED] 47886.041
    
    [GRAPHIC] [TIFF OMITTED] 47886.042
    
    [GRAPHIC] [TIFF OMITTED] 47886.043
    
    [GRAPHIC] [TIFF OMITTED] 47886.044
    
    [GRAPHIC] [TIFF OMITTED] 47886.045
    
    [GRAPHIC] [TIFF OMITTED] 47886.046
    
    [GRAPHIC] [TIFF OMITTED] 47886.047
    
    [GRAPHIC] [TIFF OMITTED] 47886.048
    
    [GRAPHIC] [TIFF OMITTED] 47886.049
    
    [GRAPHIC] [TIFF OMITTED] 47886.050
    
    [GRAPHIC] [TIFF OMITTED] 47886.051
    
    [GRAPHIC] [TIFF OMITTED] 47886.052
    
    [GRAPHIC] [TIFF OMITTED] 47886.053
    
    [GRAPHIC] [TIFF OMITTED] 47886.054
    
    [GRAPHIC] [TIFF OMITTED] 47886.055
    
    [GRAPHIC] [TIFF OMITTED] 47886.056
    
    [GRAPHIC] [TIFF OMITTED] 47886.057
    
    [GRAPHIC] [TIFF OMITTED] 47886.058
    
    [GRAPHIC] [TIFF OMITTED] 47886.059
    
    [GRAPHIC] [TIFF OMITTED] 47886.060
    
    [GRAPHIC] [TIFF OMITTED] 47886.061
    
    [GRAPHIC] [TIFF OMITTED] 47886.062
    
    [GRAPHIC] [TIFF OMITTED] 47886.063
    
    [GRAPHIC] [TIFF OMITTED] 47886.064
    
    [GRAPHIC] [TIFF OMITTED] 47886.065
    
    [GRAPHIC] [TIFF OMITTED] 47886.066
    
    [GRAPHIC] [TIFF OMITTED] 47886.067
    
    [GRAPHIC] [TIFF OMITTED] 47886.068
    
    [GRAPHIC] [TIFF OMITTED] 47886.069
    
    [GRAPHIC] [TIFF OMITTED] 47886.070
    
    [GRAPHIC] [TIFF OMITTED] 47886.071
    
    [GRAPHIC] [TIFF OMITTED] 47886.072
    
    [GRAPHIC] [TIFF OMITTED] 47886.073
    
    [GRAPHIC] [TIFF OMITTED] 47886.074
    
    [GRAPHIC] [TIFF OMITTED] 47886.075
    
    [GRAPHIC] [TIFF OMITTED] 47886.076
    
    [GRAPHIC] [TIFF OMITTED] 47886.077
    
    [GRAPHIC] [TIFF OMITTED] 47886.078
    
    [GRAPHIC] [TIFF OMITTED] 47886.079
    
    [GRAPHIC] [TIFF OMITTED] 47886.080
    
    [GRAPHIC] [TIFF OMITTED] 47886.081
    
    [GRAPHIC] [TIFF OMITTED] 47886.082
    
    [GRAPHIC] [TIFF OMITTED] 47886.083
    
    [GRAPHIC] [TIFF OMITTED] 47886.084
    
    [GRAPHIC] [TIFF OMITTED] 47886.085
    
    [GRAPHIC] [TIFF OMITTED] 47886.086
    
    [GRAPHIC] [TIFF OMITTED] 47886.087
    
    [GRAPHIC] [TIFF OMITTED] 47886.088
    
    [GRAPHIC] [TIFF OMITTED] 47886.089
    
    [GRAPHIC] [TIFF OMITTED] 47886.090
    
    [GRAPHIC] [TIFF OMITTED] 47886.091
    

</pre></body></html>
